<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: AIR TRANSPORTATION IN THE UNITED STATES IN THE 21ST CENTURY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: AIR TRANSPORTATION 
                IN THE UNITED STATES IN THE 21ST CENTURY

=======================================================================

                                (115-4)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-655 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  


                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
DUNCAN HUNTER, California            ANDRE CARSON, Indiana
BLAKE FARENTHOLD, Texas              CHERI BUSTOS, Illinois
BOB GIBBS, Ohio                      ELEANOR HOLMES NORTON, District of 
DANIEL WEBSTER, Florida              Columbia
JEFF DENHAM, California              DINA TITUS, NEVADA
THOMAS MASSIE, Kentucky              SEAN PATRICK MALONEY, New York
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               BRENDA L. LAWRENCE, Michigan
MARK SANFORD, South Carolina         MICHAEL E. CAPUANO, Massachusetts
ROB WOODALL, Georgia                 GRACE F. NAPOLITANO, California
TODD ROKITA, Indiana                 STEVE COHEN, Tennessee
BARBARA COMSTOCK, Virginia           HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LaMALFA, California             Georgia
BRUCE WESTERMAN, Arkansas            RICHARD M. NOLAN, Minnesota
PAUL MITCHELL, Michigan, Vice Chair  PETER A. DeFAZIO, Oregon (Ex 
JASON LEWIS, Minnesota               Officio)
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Brad Tilden, Chairman and Chief Executive Officer, Alaska Air 
  Group, Inc.....................................................     6
Russell ``Chip'' Childs, President and Chief Executive Officer, 
  SkyWest, Inc...................................................     6
Joseph C. Hete, President and Chief Executive Officer, Air 
  Transport Services Group, Inc..................................     6
Sara Nelson, International President, Association of Flight 
  Attendants--CWA, AFL-CIO.......................................     6
Charles Leocha, President, Travelers United, Inc.................     6

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brad Tilden......................................................    42
Russell ``Chip'' Childs..........................................    45
Joseph C. Hete...................................................    55
Sara Nelson......................................................    58
Charles Leocha...................................................    71

                       SUBMISSIONS FOR THE RECORD

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, submission of the following:

    Written statement from Captain Timothy Canoll, President, Air 
      Line Pilots Association, International.....................    81
    Letter of March 7, 2017, from Captain Timothy Canoll, 
      President, Air Line Pilots Association, International......    88
    Written statement from Robert A. Ross, National President, 
      Association of Professional Flight Attendants..............    90
Chart prepared by Hon. Peter A. DeFazio, a Representative in 
  Congress from the State of Oregon, submitted by Hon. Todd 
  Rokita, a Representative in Congress from the State of Indiana.    17

                        ADDITIONS TO THE RECORD

Written statements from:

    Christian A. Klein, Executive Vice President, Aeronautical 
      Repair Station Association.................................    93
    Atlas Air Worldwide..........................................    98
    Stephen A. Alterman, President, Cargo Airline Association....   100
    Candace McGraw, Chief Executive Officer, Cincinnati/Northern 
      Kentucky International Airport, et al......................   102
    Will Lofberg, Vice President, International, Government and 
      Environment Affairs, Emirates Airline......................   104
    FedEx Corporation............................................   111
    Phillip N. Brown, Executive Director, Greater Orlando 
      Aviation Authority.........................................   118
    Jonathan Ornstein, Chairman and Chief Executive Officer, Mesa 
      Air Group, Inc.............................................   122
    Frode Berg, Chief Legal Officer, Norwegian Air Shuttle.......   124
    Paralyzed Veterans of America................................   130
    William J. Flynn, President and Chief Executive Officer, 
      Atlas Air Worldwide, et al., on behalf of U.S. Airlines for 
      Open Skies.................................................   136
      
      
      
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     

 
BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: AIR TRANSPORTATION 
                IN THE UNITED STATES IN THE 21ST CENTURY

                              ----------                              


                        WEDNESDAY, MARCH 8, 2017

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. Thank you all for being here.
    Before I begin the prepared remarks, I would like to thank 
the Colgan family for once again being here, for so many of 
them being so strong in their continued dedication and 
commitment to enduring aviation safety. So thank you very much.
    Today, the Aviation Subcommittee is holding its third 
hearing in preparation for the upcoming FAA authorization bill. 
As all of you know, the focus of the Transportation and 
Infrastructure Committee this year is ``Building a 21st-Century 
Infrastructure for America.'' Today, we will be looking at the 
current state of our Nation's air transportation system and 
those who operate in it. We will also learn what those 
operators believe are needed for the system to move into the 
future.
    And we also want to learn from those in the public in the 
days ahead. We have created a dedicated email address to 
receive your ideas and welcome them very much. It is 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="681c1a09061b18071a1c0e0d0d0c0a090b0328050901044600071d1b0d460f071e46">[email&#160;protected]</a> Please send us your ideas.
    Air transportation has become so commonplace that we really 
don't think about what an impact it has on our daily lives. 
Journeys that once took days, weeks, or even months are now 
safely completed in hours. We can order something online and 
have it delivered the next day.
    Today, air travel is routinely and readily available to 
millions of Americans. In fact, last year more than 800 million 
passengers traveled by air within the United States, a figure 
that is projected to grow to 1 billion within 10 years.
    This remarkable system is a testament to the hard work of 
the pilots, flight attendants, mechanics, and others who take 
us safely across the country and around the world.
    Air transportation in the United States is diverse. Along 
with private aviation, it also includes mainline airlines, 
regionals, all-cargo airlines, and charter companies, each 
playing a vital role in meeting various needs of the traveling 
public and economy.
    Mainline airlines connect our major cities and also connect 
us to other countries. Regional airlines help connect many 
small and medium-size communities to large hub airports, 
providing them access to the globe. For other communities and 
certain travelers, such as small business operators, charter 
service or fractional ownership may be the only viable air 
transport option. Cargo airlines allow for our factories and 
supply chain inventories to remain fully stocked and keep goods 
flowing between businesses to consumers. They also play a large 
role in e-commerce.
    Our panel today represents a range of air transportation 
companies and stakeholders. Each witness brings a unique 
expertise and perspective on the state of our system. I look 
forward to their testimony on how Congress can help facilitate 
the building of a 21st-century aviation infrastructure.
    Before recognizing Ranking Member Larsen for his remarks, I 
would like to ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing and unanimous consent that the record remain open 
for 15 additional days for comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    I would now like to yield to Mr. Larsen for any remarks he 
may have.
    Mr. Larsen. Thank you, Mr. Chairman, for calling today's 
hearing on the state of today's U.S. air transportation 
industry. I too would like to recognize the families of the 
passengers of Colgan flight 3407 who are with us today.
    Welcome, and thank you for your tireless efforts to improve 
aviation safety.
    I also want to welcome to today's panel of witnesses Brad 
Tilden, the CEO of Seattle-based Alaska Airlines and a fellow 
Aleut. Brad and I know what that is. It is not necessary to 
explain it.
    The U.S. airspace is the busiest and most complex in the 
world and is undergoing a historic shift in modernization in 
the form of FAA's NextGen program. Alaska Airlines has been a 
strong advocate for NextGen, which has delivered more than $2.7 
billion in benefits to airlines and operators of GA aircraft 
and is expected to produce $13 billion in benefits for the 
Government and users by 2020 and over $160 billion by 2030.
    I understand that NextGen's performance-based navigation or 
PBN procedures allow Alaska Airlines flights to fly more 
directly and precisely into Juno each day. And the Greener 
Skies initiative improves the efficiency of the airline's 
flights, its landings at Sea-Tac International Airport.
    So, Mr. Tilden, I look forward to hearing from you today 
about how the state-of-the-art NextGen technologies and 
procedures are improving efficiency in today's airspace and 
providing benefits for the aviation industry generally.
    Not only the busiest and most complex, the U.S. is the 
safest aviation system in the world, and I would like to 
commend the FAA and all the industry witnesses here today and 
everyone involved in the air transportation system for their 
coordination and continued commitment to ensuring the highest 
level of safety. This laudable safety record of U.S. commercial 
airlines in recent years is due in large part to the 2010 
congressional mandate that each airline pilot possesses an 
airline transportation certificate. I personally support that. 
I believe that current pilot training requirements are 
nonnegotiable.
    At the same time, though, I realize that some regional air 
carriers, among them there is some concern about the shortage 
of pilots in this country. So earlier this week Ranking Member 
DeFazio and I made a request to the Department of 
Transportation's inspector general--I am sorry. At our request, 
the DOT inspector general reported that some regional airlines 
have started increasing pay to attract additional pilots. That 
is a step in the right direction.
    I also look forward to hearing today from Ms. Sara Nelson 
from the Association of Flight Attendants. We are in the midst 
of the safest period in U.S. civil aviation history, thanks in 
large part to the hard work of U.S. flight attendants. Their 
training and readiness to spring into action have saved lives 
and dangerous accidents. Therefore, it is critical that flight 
attendants are well-rested and that out-of-date Federal 
regulations of flight attendants' flight and duty periods are 
reformed.
    Last year's long-term FAA bill, as reported by the 
committee, included such a provision. I look forward to working 
with Chairman LoBiondo to ensure its inclusion in the FAA bill 
this year.
    And today, I am pleased to join with Ranking Member DeFazio 
in introducing a bill to improve passengers' travel experience 
by requiring airlines to be more transparent about what they 
will do for passengers caught up in large-scale network 
meltdowns, among other things.
    We must continue to ensure the air travel experience is 
fair and devoid of discrimination. On this front, I was pleased 
to have included in last year's short-term bill a provision on 
air travel accessibility and look forward to hearing what more 
the subcommittee can do to improve passengers' travel 
experience.
    And finally, Mr. Chairman, I would ask for unanimous 
consent that written statements prepared by the Air Line Pilots 
Association, International and the Association of Professional 
Flight Attendants be entered into the record.
    Mr. LoBiondo. Without objection, so ordered.

    [The information can be found on pages 81-92.]

    Mr. Larsen. Thank you, Mr. Chairman. I look forward to the 
witnesses' testimony.
    Mr. LoBiondo. Now I would like to recognize Mr. Shuster for 
any comments he may have.
    Mr. Shuster. Thank you, Chairman LoBiondo. Let me start by 
echoing your thanks to the families, the Colgan families, for 
being here, and your efforts to make sure that we have the 
safest possible system we can have. And so thank you very much 
for that dedication.
    I want to thank Chairman LoBiondo and Ranking Member Larsen 
again for this third in a series of the Aviation Subcommittee 
hearings focusing on FAA reauthorization and building a 21st-
century aviation system for America. I look forward to 
discussing the state of the transportation industry. It is a 
vital industry to America. It is one of our most important, one 
we invented, and it for all my efforts is to continue to make 
sure that America leads the aviation industry in the world.
    Private air transportation plays an important role in our 
aviation system, connecting our smaller communities. I come 
from a rural community. It is vital that we have those 
connections. The general aviation also provides a tremendous 
training ground for potential future pilots to be able to go to 
work for the bigger carriers to make sure that we have the 
levels necessary to staff those planes and to continue to grow 
air transportation in this country.
    As I said, we have been a leader in it, and I want to 
maintain that leadership in the world. We have done lots of 
things over the last 40 years, from low-cost carriers, 
fractional ownership, giving people more and more choices, how 
we get our tickets, whether it is an e-ticket, which I am still 
not sure I know how to do, but I stumble along.
    It is true. I know what Aleut means, too. That is what 
pirates used to do.
    But, no, I stumble and bumble along with the technology, 
but having 20-year-old kids, they seem to get me to where I am 
going, as well as Mr. Larsen sometimes helps me.
    Again, in 2016, we took steps in the extension to help 
families sit together, things like that, that we thought would 
be helpful to the folks that are traveling in this country.
    Forty years after airline deregulation, which occurred in 
1978, the airline industry continues to evolve. And I am really 
interested in hearing from our witnesses today and to continue 
efforts to evolve and provide America with more choices, more 
opportunities for safe air travel.
    So I look forward to being here. Thank all of you for being 
here and taking the time to help educate us and help in this 
discussion.
    And with that I yield back.
    Mr. LoBiondo. Now I would like to turn to Mr. DeFazio for 
any remarks.
    Peter.
    Mr. DeFazio. Thank you, Mr. Chairman.
    You know, we are living in the safest period of the U.S. 
civil aviation history. We can all be thankful for that. We 
want to sustain that. We are also looking at one of the longest 
and most profitable sustained periods for the airlines, 
combined after-tax profit, $25.6 billion in 2015, including 
$6.8 billion in bag and reservation change fees.
    And I would like to recognize that Brad Tilden here, 
representing Alaska, registered a record profit in 2016 of 
nearly $1 billion. Congratulations.
    A healthy industry is good for everyone, travelers, 
employees, our economy as a whole, and we want to see this 
continue into the future.
    I am concerned, and Ranking Member Larsen raised it 
earlier, about the IT situation. We had many thousands, tens of 
thousands of people stranded over the last couple of years 
because of IT meltdowns, some that relate to the dispatch of 
the planes, some that relate to the reservation systems.
    One high-profile event at Chicago Midway International 
Airport was described by a travel blogger as a war zone with 
the floors covered by stranded passengers. None of the airlines 
represented here today caused those disruptions, although 
SkyWest partnered some that did, and I am going to be 
interested if Mr. Childs has any reflection upon how difficult 
it was for them and their intended passengers because of those 
problems.
    So the bill we introduced would give people--I mean, people 
in Chicago Midway were just told by that particular airline: Go 
look at your contract of carriage if you want to know what you 
can get. We think it should be a little more clear than paging 
through the fine print somewhere online what obligations the 
airlines have when the airline itself has caused the problem 
with an IT meltdown. So I have introduced that bill today.
    The most important issue, as I said earlier, is safety. And 
we have Colgan families here today, many of whom I have met 
with and worked with in the past, and I appreciate your 
persistence. I think probably I first raised the issue of 250 
hours rating back in the early 1990s. It took way too long to 
change that, and unfortunately you had tremendous losses that 
ultimately did lead to that change. You know, I observed many 
times that people who are becoming hair stylists and 
manicurists in Oregon had to have 600 hours of training, but 
you could have people's lives in your hands and fly a plane 
with 250 hours. That was not adequate.
    Some are out there saying that this has led to a pilot 
shortage. As Ranking Member Larsen said earlier, we have a 
study showing that the pay is pathetically low at some regional 
airlines. Just look at Embry-Riddle. If you go to school there 
and go through the training for your certificate, it comes to 
about $300,000.
    But say, OK, some are advocating let's roll back the hours 
and some other things, cut the cost. All right, let's cut it 
down to $200,000 to get a certificate, something I don't 
support. But if you think about what that means, $200,000 is a 
little over $2,000 a month on your loans, and you are earning 
$20,000 a year.
    Now how does negative $4,000 income work out? That is why 
we had the copilot on the Colgan flight living in her parents' 
basement in Seattle and deadheading across the country. That 
shouldn't happen.
    And a lot of young people are not going to make a rational 
decision to become pilots until the pay better matches the 
costs of getting the certificate and engaging in that 
occupation. So I think that is a problem, but weakening the 
rules is not the solution.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. LoBiondo. Thank you, Mr. DeFazio.
    I would now like to turn to our witnesses. And on the panel 
today included are Mr. Brad Tilden, chairman and chief 
executive officer of Alaska Air Group; Mr. Russell ``Chip'' 
Childs, president and chief executive officer of SkyWest, 
Incorporated; Mr. Joseph Hete, president and chief executive 
officer of Air Transport Services Group; Ms. Sara Nelson, 
international president of the Association of Flight 
Attendants--CWA, AFL-CIO; and Mr. Charles Leocha, chairman and 
cofounder of Travelers United.
    Mr. Tilden, you are recognized for your statement.

TESTIMONY OF BRAD TILDEN, CHAIRMAN AND CHIEF EXECUTIVE OFFICER, 
ALASKA AIR GROUP, INC.; RUSSELL ``CHIP'' CHILDS, PRESIDENT AND 
    CHIEF EXECUTIVE OFFICER, SKYWEST, INC.; JOSEPH C. HETE, 
 PRESIDENT AND CHIEF EXECUTIVE OFFICER, AIR TRANSPORT SERVICES 
GROUP, INC.; SARA NELSON, INTERNATIONAL PRESIDENT, ASSOCIATION 
    OF FLIGHT ATTENDANTS--CWA, AFL-CIO; AND CHARLES LEOCHA, 
               PRESIDENT, TRAVELERS UNITED, INC.

    Mr. Tilden. Chairman LoBiondo, Ranking Member Larsen, 
Chairman Shuster and Ranking Member DeFazio, and members of the 
committee, thank you very much for this opportunity to testify 
today. It is a real pleasure to be here to talk about Alaska 
Airlines and the industry.
    My name is Brad Tilden, and I am the CEO of Alaska Air 
Group. Alaska Airlines is the fifth-largest airline in the 
United States following our recent acquisition of Virgin 
America. We now have approximately 19,000 employees, 280 
aircraft, and we fly about 1,200 flights a day.
    While that may or may not sound like a large company, we 
are small by airline standards. We have been in business for 85 
years, but we don't fit the legacy carrier mold in that we are 
low cost, low fare, and in the end that we have grown at a 
significantly higher rate than the average airline.
    Our customer-facing employees are focused on making the 
flying experience from start to finish as great as possible 
every day for our guests. As a testament to their skill and 
dedication, we are honored to have been recognized for 9 
consecutive years by J.D. Power as the best traditional network 
airline.
    We are bullish on the airline industry, and we believe that 
with our cost structure, customer orientation, and operational 
capability, Alaska is well positioned to take advantage of an 
improving industry. Warren Buffett, who in the past famously 
derided investing in airlines, now invests nearly $10 billion 
in the industry. That says something.
    The industry has changed a lot in the last 10 to 15 years. 
The pervasive bankruptcies and consolidation we have dealt with 
have been painful and challenging, but the industry as a whole 
is now in a different and healthier place. Airlines are 
investing in their facilities, people, and products in order to 
win new customers.
    For example, Alaska recently launched premium class 
service, providing our guests more leg room and amenities as an 
option. We are enhancing in-flight entertainment and 
connectivity options. We are adding popular new local food and 
beverage options. And we are taking steps to make our industry-
leading mileage plan even better. Beyond these areas, we are 
also making major capital investments in things like new seats, 
space-saving bins, and airport improvements.
    Despite improvements in the industry, it is more important 
than ever that aviation policy supports vigorous competition. 
Today, the four largest airlines comprise more than 80 percent 
of the domestic market, whereas 10 to 15 years ago it took nine 
airlines to make up that much of the market.
    As you consider aviation policy issues, we ask you to 
embrace policies to keep the industry vibrant, including 
enhancing the ability for smaller carriers to gain access to 
constrained airports and enhancing our ability to share feed 
traffic with larger airlines.
    On that point, there are different perspectives on the Gulf 
Carrier Open Skies issue. As a smaller airline without a global 
network, Alaska needs to partner with airlines from around the 
globe to have a chance of competing with U.S. airlines that 
have a global footprint and that can offer a one-stop shop to 
customers needing global access. We believe it is imperative 
that the U.S. Government do zero harm to the vibrant U.S. Open 
Skies policy.
    The subject of this hearing is about building 21st-century 
infrastructure in America. Alaska believes it is imperative to 
speed up modernization of air traffic control to deal with 
increasing congestion and delays and to bring it into the 
modern era. To be fair, modern GPS technology is used today by 
most airlines for the en route portion of flights, but once an 
airplane starts its descent, efficient operations are typically 
interrupted by the use of 1950s-era radar-based manual 
procedures.
    Herein lies a big opportunity. We need to modernize the 
system to connect the en route navigation structure with the 
arrival and approach phases of a flight.
    Alaska Airlines is deeply familiar with this technology. In 
the mid-1990s, we pioneered what is called required navigation 
performance, which are GPS-based approaches and which are a key 
building block of NextGen. However, today, more than 20 years 
later, we use these RNP approaches for just 4 percent of our 
approaches nationwide.
    We believe that in the future airplanes should not be 
vectored left and right for spacing and engines shifted from 
idle to powered as airplanes descend and then level off in a 
stairstep approach to the runway. Instead, aircraft should 
arrive at a specific waypoint in the sky at a predetermined 
point in time to provide for spacing, and they should then 
begin a continuous glide at idle power, following a precise 
curving flight path down to the runway. This will allow more 
airplanes into the system. It will materially reduce noise, 
fuel consumption, travel time delays, and environmental 
emissions.
    As a pilot myself, I can tell you that this country's air 
traffic controllers manage the safest system in the world, and 
the FAA is full of talented professionals who have made 
progress with NextGen. However, under current governance and 
funding, we run a real risk that demand for airspace is going 
to rise at a rate that is more rapid than our rate of 
technology innovation, worsening delays.
    While we understand ATC reform may be a topic of future 
hearings, and while we know that there are numerous viewpoints 
on this subject, we would like to go on record with our belief 
that ATC reform, including the separation of ATC operations 
into an independent, nonprofit entity, as most other 
industrialized countries have done, is needed, and such a 
change will allow innovation and technology deployment to 
flourish.
    Thank you very much for this opportunity to speak with you 
today.
    Mr. LoBiondo. Thank you.
    Mr. Childs, you are recognized.
    Mr. Childs. Good morning, Chairman LoBiondo, Ranking Member 
Larsen, Chairman Shuster, Ranking Member DeFazio, and 
distinguished members of the subcommittee. I am Chip Childs, 
president and CEO of SkyWest, Inc., which is the largest 
regional airline in the world.
    SkyWest, Inc. owns and operates two regional airlines, 
SkyWest Airlines and ExpressJet Airlines. Combined, these 
entities complete more than 3,000 flights per day and carry 53 
million passengers a year. This includes service to more than 
250 cities in North America, Canada, Mexico, and the Caribbean.
    On behalf of SkyWest, ExpressJet, and more than 18,000 
employees, I appreciate the opportunity to be here today and 
offer testimony about the importance of the regional airline 
industry.
    Regional airlines operate under parts 121 and 135 and 
generally utilize aircraft with fewer than 100 seats in 
partnership with major airlines. As such, we are held to the 
same safety standards as mainline carriers. We treat Federal 
safety regulations as the floor, not the ceiling, and take 
pride in meeting and exceeding these standards.
    We believe in one level of safety for all passenger 
carriers, and our safety culture drives everything at SkyWest 
and ExpressJet. To that end, we utilize advanced technology and 
innovative safety programs. Our flight crews and mechanics are 
some of the most experienced and thoroughly trained in the 
entire airline industry, with training programs that are lauded 
by the FAA.
    We are part of the regional airline industry, which is by 
no means small. In 2015, regional airlines operated 44 percent 
of the Nation's departures and safely carried 157 million 
passengers on nearly 4 million departures, about 11,000 
departures a day.
    We play a critical role in the aviation industry by 
connecting communities large and small to the global air 
transportation network. We fly as Delta Connection, American 
Eagle, United Express, and in partnership with Alaska Airlines. 
We share our majors' codes and have their names, color schemes, 
and logos painted on our aircraft.
    Regional airlines are job creators. Our industry employs 
more than 59,000 employees. Among these employees are 
approximately 15,000 flight attendants and 20,000 pilots, and 
our industry needs more. While SkyWest has been able to stay 
fully staffed with qualified pilots, our industry has been hit 
by a growing pilot shortage.
    We are honored that the major airlines recruit heavily from 
the regional industry, but this honor comes with consequences. 
According to university studies, major airlines will hire more 
than 18,000 pilots in the next 3 years. That is nearly the size 
of today's active regional airline pilot workforce. Within a 
decade, cumulative demand for pilots is forecast to reach 
50,000 pilots.
    Overall the shortfall of commercial airline pilots is 
forecast to reach 15,000 by 2026. Using an industry standard of 
roughly 10 pilots per aircraft, a shortfall of this magnitude 
would necessitate parking 1,500 aircraft. For perspective, this 
number corresponds to roughly two-thirds of the regional 
airline fleet in operation today.
    Thanks to the leadership of this committee, Congress gave 
FAA tools to address these concerns. Recognizing the high value 
of structured training, Congress authorized the FAA to approve 
alternate pathways for first officer qualification, allowing 
specific academic training courses to be credited toward a 
portion of total flight-hours where the Administrator 
determines that these academic training courses will enhance 
safety more than requiring the pilot to fully comply with the 
flight-hours.
    Pilots following these approved pathways hold restricted 
privileges ATP [Airline Transport Pilot] certificates and may 
serve as part 121 airline first officers. These R-ATP pathways 
create a much higher level of safety and are well supported by 
data.
    Although Congress gave the FAA the authority to approve R-
ATP pathways, the agency has taken a narrow view of its 
authority to grant additional pathways outside of military and 
degree program institutions. We urge Congress to prompt the FAA 
to use its existing authority to authorize additional R-ATP 
pathways.
    We could also help fill the shortfall with student loans. 
One of the single greatest deterrents facing new pilots is 
cost. Aspiring pilots can spend as much as $100,000 to $150,000 
on a flight training path to commercial airlines, but the 
return on investment on these training dollars exceeds that 
spent on teachers, lawyers, and even doctors.
    While we seek ways to reduce costs and offer tuition 
reimbursement, scholarships, and other incentives, Congress can 
help by backing loans to these students to achieve their dreams 
and meet the pilot shortfall.
    Mr. Chairman and Ranking Members and distinguished members 
of the subcommittee, it is my pleasure to be here today, and I 
look forward to taking your questions at the conclusion of the 
panel.
    Mr. LoBiondo. Thank you.
    Mr. Hete.
    Mr. Hete. Chairman LoBiondo, Ranking Member Larsen, and 
members of the subcommittee, I am privileged to serve as the 
president and CEO of Air Transport Services Group. Thank you 
for the opportunity to highlight our company's vision for all-
cargo aviation in the 21st century.
    ATSG wholly owns two airlines, ABX Air, Inc. and Air 
Transport International, each independently certificated by the 
U.S. Department of Transportation. The company's airlines 
separately offer a combination of aircraft, crews, maintenance, 
and insurance services, commonly referred to as ACMI services. 
ABX operates Boeing 767 freighter aircraft, while ATI operates 
767s, 757 freighters, and 757 combi aircraft. Combi aircraft 
are dedicated to the U.S. military and are capable of carrying 
passengers and cargo containers on the main deck. The airlines 
can conduct cargo operations worldwide.
    The air cargo industry is unique compared with other 
industry users. We have a different business model and 
operational characteristics. So it is important to recognize 
our segment of the aviation industry when making policy 
decisions. Today, I would like to share with the committee some 
of the challenges and concerns we have and how they affect our 
cargo airline operations.
    We at ATSG have seen a great deal of change take place in 
the air cargo industry over the past 2 years. With stiff 
competition in the industry, removing specific regulatory 
burdens have the potential to pay off in the form of 
operational efficiencies, which will undoubtedly improve our 
costs and competitive abilities, as well as for our primary 
customers, the U.S. military, DHL, and Amazon.
    There are a few key topics of concern for our industry that 
I would like to share with you. Over the past few years, a 
debate has been waged over whether cargo pilots should continue 
to be regulated under the existing part 121 rules or whether 
they should be subject to newer, part 117 rules. The Federal 
Aviation Administration, after no less than three separate 
reviews, each time correctly found that the cargo pilots should 
be regulated under part 121.
    These rules work for our industry. There has been no sound 
evidence to suggest a move to a one-size-fits-all rule would 
improve safety for all cargo pilots, and this makes sense as 
the air cargo industry is inherently different from the 
passenger carrier industry. As I mentioned earlier, ATI 
operates the 757 combi, which carries passengers, and those 
flights are operated under the part 117 rules.
    If ATSG's airlines were forced to comply with the 117 
rules, we would have to hire more pilots, which would be a boon 
for the pilots union, but would allow for even less flying time 
for each pilot, potentially affecting their proficiency. 
Changes in flight and duty time rules that apply to all cargo 
carriers is a bad idea, and doing so could actually make our 
operations less safe and put our pilots at risk.
    At ATSG's airlines, we provide more and longer flight crew 
rest opportunities in our cargo operations than our passenger 
counterparts. Most importantly, our pilots average 40 to 45 
flight-hours per month and are usually point-to-point, while 
passenger carrier pilots fly approximately 60 hours each month 
and include many segments per day. Our pilots are also only 
scheduled for duty 14 to 16 days out of every month, and in 
many cases that includes weekend layovers.
    Former Administrator Randy Babbitt said it best at an ALPA 
Safety Conference: ``In rulemaking, not only does one size not 
fit all, but it's unsafe to think that it can.''
    With regards to the air transport of lithium batteries, 
ATSG supports the promulgation of tough and internationally 
consistent regulations governing the air cargo transportation 
of lithium batteries, as well as stringent enforcement of those 
regulations around the world.
    The key issue here for our company is consistency. We can 
simply not have a patchwork of international lithium battery 
transportation standards. Harmonization avoids confusion among 
shippers, carriers, and others in the supply chain while 
maximizing safety.
    Regarding the Open Skies issue, I share the opinion of the 
Cargo Airline Association that opposes altering the country's 
policy of expanding international opportunities through the 
negotiation of Open Skies agreements with trading partners. The 
all-cargo carriers have global networks with destinations all 
over the world, and we rely on the access that Open Skies 
agreements allow us to provide time-definite delivery of high-
value goods.
    Unlike the passenger carriers, all-cargo carriers do not 
have code share agreements or worldwide alliances and depend on 
the beyond rights inherent in Open Skies agreements to provide 
global service. Therefore, we oppose any attempt to jeopardize 
our existing Open Skies agreements.
    Finally, one of the biggest impediments to NextGen may not 
in fact be funding or transfer of ATC to a private entity as 
many have talked about, but rather aircraft noise. With new, 
more fuel-efficient flight paths for aircraft being implemented 
as part of the airspace redesigned for NextGen, new communities 
are exposed to noise that previously were not. Further, as a 
cargo operator we fly a substantial number of nighttime 
operations, and any call to impose nighttime flight 
restrictions would be problematic. These issues tend to be 
local-level problems that then get elevated and then in time 
become congressional problems.
    While a lot of advances have been made in the area of 
aircraft noise, and a significant decrease in those exposed to 
noise has been achieved, this issue will continue to prove 
challenging for both the FAA and operators like us.
    In summary, I would oppose any effort to impose new 
aircraft noise restrictions that may undermine our national 
aviation and airport system or inhibit the implementation of 
NextGen modernization projects, which are crucial for the 
efficiencies of the future of air transport.
    Again, thank you for the opportunity to appear before you 
today, and discuss the issues important to ATSG, its airlines, 
and the future of the airline cargo industry. I look forward to 
answering any questions you may have.
    Mr. LoBiondo. Thank you very much.
    Ms. Nelson, you are recognized.
    Ms. Nelson. Thank you Chairman LoBiondo, Congressman 
Larsen, and members of the committee. We appreciate the 
opportunity to testify today about maintaining the safest, 
globally competitive U.S. aviation system in the world. As 
international president of the Association of Flight 
Attendants--CWA, representing nearly 50,000 flight attendants 
at 19 mainline, niche, regional, charter, and international 
airlines, I am proud to bring the expert voice from the 
aircraft cabin to this discussion.
    It is fitting that on International Women's Day, our union 
that was founded by strong women and which remains largely a 
workforce of women would have a platform to testify in the 
United States Congress. Our members are dutifully performing 
their work as aviation's first responders around the world 
today.
    But aviation would come to an immediate halt without the 
contributions of women in aviation, as there is a call for a 
day without women. We should recognize these women for the work 
that they do in aviation, and we appreciate the opportunity to 
testify on issues of equality in aviation today.
    My written testimony addresses four key issues flight 
attendants need: proper rest to do our work, an orderly and 
secure cabin free of voice calls, a reality check on the 
disparate compensation at regional airlines, and the 
enforcement of Open Skies agreements to keep global competition 
on a level playing field.
    AFA continues to advocate for equal rest with our flight 
deck counterparts, and thanks to over 100,000 flight attendants 
and our supporters speaking out and the action of this 
committee, a 10-hour minimum rest requirement and the 
implementation of a Fatigue Risk Management Plan for flight 
attendants was included in H.R. 4441 last year. We look forward 
to inclusion of this language in the base bill this year.
    Our job as aviation's first responders and the last line of 
defense in aviation has only become more challenging in recent 
years with staffing at minimums and aircraft cabins fuller than 
ever. The FAA rest minimum for flight attendants is 8 hours, 
even after a 14-hour duty day. During our rest breaks, flight 
attendants exit the airport, eat dinner, check into and out of 
hotels, and report for duty after returning to the airport and 
transiting security. The reality is we only have an opportunity 
for 4 or 5 hours of rest.
    Studies commissioned by Congress show we need more rest. We 
are thankful to Chairman LoBiondo, Congressman Capuano, Ranking 
Members DeFazio and Larsen, and the members of this committee 
for including 10 hours' rest in the Fatigue Risk Management 
Plan in the FAA reauthorization bill.
    Our industry is the safest in the world because of the work 
of the stakeholders represented today, the oversight of 
Congress, and our airlines' ability to compete on a level 
playing field with any other aircraft operator in the world. 
Our union is gravely concerned that this is all at risk due to 
the failure to enforce Open Skies agreements.
    The U.S. has negotiated 120 Open Skies agreements with the 
intention of providing increased travel and trade, enhancing 
productivity, and spurring high-quality job opportunities and 
economic growth. The majority of these agreements are working. 
However, failure of the previous administration to enforce Open 
Skies agreements with the Gulf States, means Emirates, Etihad, 
and Qatar Airways are distorting the market with over $50 
billion in subsidies from their governments.
    We can compete with any airline in the world, but competing 
with the treasuries of their governments is unsustainable and 
threatens to choke out U.S. carriers, ultimately destroying 
consumer choice as well.
    Every route ceded is a cost of 1,500 U.S. jobs. If these 
airlines cannot play by the rules, then we must consider 
canceling these agreements that are being violated.
    In addition, the Obama administration made a grave mistake 
when it approved the foreign air carrier permit of Norwegian 
Air International. NAI violates article 17 bis of the EU/U.S. 
Open Skies agreement by setting up an Irish subsidiary to 
capitalize on less restrictive labor laws. NAI's deliberate 
effort to undermine Norway's strong labor protections violates 
Open Skies and sets in motion a downward spiral for U.S. 
aviation and 300,000 U.S. jobs.
    This committee is uniquely positioned to take up this issue 
and stop the expansion of the approval of foreign air carrier 
permits for airlines operating according to this flag-of-
convenience model.
    Aviation, born in the U.S., is perhaps one of the greatest 
symbols of our freedom. Our members and our passengers fly to 
every corner of the earth when only some can dream of crossing 
borders. Our airlines are staffed with those who come from 
service in our military, and we proudly transport our military 
around the world, most wonderfully to bring them home.
    The U.S. aviation industry accounts for 5 percent of U.S. 
gross domestic product, contributes $1.6 trillion in total 
economic activity, and supports nearly 11 million jobs. It is 
the symbol of American progress, innovation, and opportunity, 
and we must protect it.
    I understand with gut-wrenching firsthand experience that 
safety, security, and economic strength are paramount for an 
industry that continues to capture the imagination and 
attention of the world. As a Boston-based flight attendant on 
September 11, 2001, I lost my dear friends.
    But I know too that in the midst of our grief and our 
resolve to keep our airlines flying, we lost over 100,000 
aviation jobs, took massive pay cuts, lost our pensions, and 
now spend more time away from our families with staffing cut to 
minimum. Aviation workers had to face the harsh realities of a 
post-9/11 world, and so have our families.
    But in the long run, any aviation business model that seeks 
to operate solely on the backs of the people who make our 
airlines fly is not only inhumane, it is a threat to our 
safety. September 11 is not the exception to the rule for our 
charge as stakeholders, including, with deep respect, the 
Colgan Air families who are here today, and together with your 
careful oversight.
    It is forever the reality that a breach in aviation 
security and a wounded U.S. aviation industry is a threat to 
the very freedom of our Nation and the prosperity of every 
community across the United States.
    Thank you, Chairman LoBiondo, Congressman Larsen, and 
Congressman DeFazio, for serving as the strongest imaginable 
champions for our vital American industry. Flight attendants 
appreciate you and the members of this committee for the 
opportunity to testify here today, for your oversight, and for 
the protection of good American jobs. I look forward to 
answering your questions.
    Mr. LoBiondo. Thank you very much.
    Mr. Leocha.
    Mr. Leocha. Thank you for giving passengers a seat at this 
hearing. My name is Charlie Leocha. I am president of Travelers 
United, the country's largest travel advocacy group. We work 
intimately with both Government and travel stakeholders here in 
Washington.
    Anyone who has flown recently in the back of a plane knows 
that passengers have far less personal space, planes are flying 
fuller than ever, leg room and seat width is being reduced, and 
ancillary fees are exploding. My testimony today focuses on a 
list of changes that have developed over the past decade in the 
aviation marketplace.
    Number one, common carriers. Airlines are common carriers. 
There are centuries of settled tort law. Pricing of common 
carrier services is considered public information. It used to 
be nailed up next to the door of their offices. It has been 
that way for thousands of years.
    The airlines, however, decided since 2008 to publicly 
release only partial pricing. Today it is impossible to 
effectively comparison shop for airfares and fees. This has 
stopped IT development in its tracks.
    Once the full airfare and fee data is released, IT experts 
can expect new shopping engines that will allow passengers to 
comparison shop for airline travel. Don't tell the airlines, 
but they will make far more money selling their products 
throughout their total distribution network.
    Public pricing. Once an airline decides to work with travel 
agencies, their pricing should become public, and it always 
should be under common carriers. Airlines should not be 
permitted to pick and choose where their airfares and fees 
appear. Their prices are public information.
    Reservation system outages. These are under the complete 
control of the airlines. Airlines should not be allowed to 
treat them like acts of God. Bizarrely, passengers are being 
punished for the failures of the airlines.
    When there is an airline IT system failure, the airlines 
are responsible and should make their customers whole. Full 
refunds should be made available, and all airline tickets 
should be valid for at least 1 year from the date of the 
disruption. Plus, additional expenses should be covered.
    Next, DOT should reevaluate the antitrust immunity and 
airline alliance rules. Originally, these grants were developed 
to create a better travel experience for passengers. Today, the 
airlines are using these DOT-provided grants to stop 
competition.
    As smaller airlines, like Alaska, JetBlue, Southwest, and 
Hawaiian, begin to look at new markets, they are being faced 
with coordinated efforts by large alliances to deny them useful 
takeoff and landing slots at international airports. Airlines 
simply cannot compete without takeoff and landing slots. And 
without competition, consumers suffer, prices rise.
    Open Skies treaties. These have been the bedrock of 
expansion for the U.S. aviation industry since the early 1990s. 
Today, these treaties are providing consumers some hope for 
competition and lower transatlantic and international airfares. 
Middle Eastern carriers, Etihad, Emirates, and Qatar, are 
serving a part of the world that was virtually ignored by the 
U.S. carriers for years, and low-cost carriers, like Wow and 
Norwegian, are finally forcing Delta, American, and United to 
lower transatlantic airfares.
    Better service to the fastest growing areas of the world 
and lower transatlantic airfares are both enhanced by Open 
Skies treaties.
    Next, airport taxes. As head of Travelers United, I have 
never met a traveler who thought they should pay more taxes for 
using an airport. Any increase in airport funding should come 
from the surrounding municipalities that benefit from the 
economics of the airport. Passengers are already paying their 
fair share. Proposed airport fee increases may result in more 
than $60 of fees being added to a ticket before passengers even 
spend $1 on airfare, and that dollar is taxed another 7.5 
percent.
    And finally, this one should be easy: Educate travelers 
about their rights. Congress doesn't have to pass any bills. 
DOT doesn't need any rulemakings. The only thing we need from 
our Government is the courage to let passengers know their 
rights regarding compensation. And there are only two of them. 
One, passengers are due compensation for lost, damaged, and 
delayed luggage up to $3,500. And when passengers are bumped, 
they can get compensation up to $1,350. That is it. End of 
domestic passenger compensations.
    I look forward to any questions.
    Mr. LoBiondo. Thank you very much.
    Mr. DeFazio, you are recognized.
    Mr. DeFazio. Thank you, Mr. Chairman.
    So we have heard from two people mention Etihad. Let's talk 
about that for a second. H.E. Sultan Bin Saeed Al Mansouri is 
head of the aviation authority, H.E. Eng. Mohamed Mubarak Al 
Mazrouei is head of the airline, H.E. Eng. Awaidha Murshed Al 
Marar runs the airport, and the Government is dumping massive 
amounts of money into a losing proposition.
    And it isn't just that they are providing service to parts 
of the world that were underserved. Emirates is flying planes 
to places like Milan, Italy, and using their Fifth Freedom 
Right to come across the Atlantic.
    Simple question: Do you think we should allow a State-owned 
enterprise in a monarchy dictatorship, do you think that is 
fair competition for our airlines, just because you get a 
little bit off the ticket?
    Yes or no, Mr. Leocha? Do you think it is fair.
    Mr. Leocha. Well, if what you are----
    Mr. DeFazio. Yes or no?
    Mr. Leocha. If what you are saying is true, no.
    Mr. DeFazio. Yes, it is true. OK. Thank you.
    Mr. Leocha. OK. I don't----
    Mr. DeFazio. Thank you. Thank you.
    Mr. Tilden? So do you want to be ultimately competing--I 
mean, you want to partner with a State-owned enterprise, but 
what happens if a State-owned enterprise starts competing with 
you?
    Mr. Tilden. What I would say about this, Alaska Airlines is 
a domestic airline operating in the U.S., but we have treaties 
with these other countries----
    Mr. DeFazio. I know, but my question, do you think the 
United States of America should have policies that require our 
capitalist, privately owned companies to compete with State-
owned enterprises from dictatorships that are being financed in 
that manner?
    Mr. Tilden. I think every country in the world sets up 
their airline industry a little differently.
    Mr. DeFazio. OK. All right. So you are not going to----
    Mr. Tilden. Well, what I will say is that all these 
airlines should be required to comply with the treaties. I do 
believe that.
    Mr. DeFazio. Well, I don't think the treaty--you know, most 
of our trade policy is a failure, and that is another example 
of it.
    Now, we just had a panel last week, Mr. Leocha, of airports 
talking about their needs. You are opposed to an increase in 
the passenger facility charge.
    Now, I will give you an example. Denver was in to see me. 
They are doing everything they can, including a P3 to redo 
their main terminal, which needs to be redone to tremendously 
facilitate the movement of passengers through security and also 
will provide much more shopping environment and all that kind 
of stuff.
    So they are using P3s. They have got a PFC. They are bonded 
out. You are saying they shouldn't be allowed to increase their 
PFC, but they have a dire need to extend their terminals to 
accommodate additional traffic so people won't be sitting on 
the ground waiting to get to a gate. So you are just saying you 
are against PFC increases no matter how well they are merited?
    Mr. Leocha. I am saying that we don't need PFC increases. 
There are other ways to increase the money for the airports.
    Mr. DeFazio. Well, excuse me, sir, but they are using a P3. 
They are getting a huge benefit from that. They are charging 
the airlines fees. They are doing everything else. And the 
question is, at some point you are bonded out, and what are you 
going to do when you are bonded out?
    I was the Democratic author of PFCs because I use the 
Eugene Airport. Eugene had to do municipal bonds to expand the 
airport. I didn't pay a cent. I don't live in Eugene. Now, you 
are just saying, well, the municipality benefits, and I live in 
the next town over, which you can hardly distinguish, but I 
shouldn't pay anything.
    Mr. Leocha. Those are questions which need to be raised by 
the localities and municipalities serviced by the airports.
    Mr. DeFazio. Well, I raised them 20 years ago when we 
established the PFC, which I think is the fairest way to have a 
user fee-based system. And there are all sorts of restrictions 
on the PFCs. There are no abuses of the PFCs. It is all 
benefitting the flying public.
    So I find your adamant opposition--I don't like the 
Greyhound bus experience, which I find in a number of airports, 
that are constrained from making improvements, and the PFC is a 
fair way to make it. And in the case of Denver, the 
municipality isn't necessarily benefitting from all the people 
who are just changing planes in Denver, and that is what some 
of the terminals are targeted toward. What is the benefit 
there? So I just find your adamant opposition very problematic.
    And then, finally, I did not want to get into ATC today, 
but if you could hold up the chart.

    [The chart follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. DeFazio. Just again, Mr. Tilden, this is the 
organizational chart, because there is a little problem in 
privatizing in the United States of America. The Germans had to 
change their Constitution. We are not changing ours.
    So we prohibit private entities from doing anything that 
affects competition. So that means if they want to increase 
taxes, obviously it has to go to the Secretary. If they want to 
change flight paths, it has to go to the Secretary. If they 
want to change NextGen procedures, it goes to the Secretary. If 
they want to change anything else regarding ATC, it has to go 
to the Secretary. If they decide to close an air traffic 
control tower, contract tower, et cetera, it has to go to the 
Secretary. If the Secretary disagrees, then we go to court.
    I don't find that to be a more efficient system. Plus, you 
are cleaving the FAA in half, and certification, which is vital 
to manufacturers, stays over here, and, yes, we move ATO over 
here. I believe there are other ways to resolve longstanding 
issues, and I didn't really want to get into this today, but 
since you raised it, I had to say that.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. DeFazio.
    Is Mr. Davis back yet?
    Mr. Gibbs.
    Mr. Gibbs. Thank you, Chairman.
    Mr. Hete, welcome, fellow Buckeye. I hear you are from 
Ohio, from Clinton County. I just wanted to recognize you, 
fellow Buckeye.
    I guess the first question is to anybody on the panel that 
wants to talk about it. You know, we have seen, we had a 
downturn in the industry and the industry has bounced back and 
doing well now, and we are seeing things turn around a lot. And 
we have also seen quite a few mergers in recent years.
    And I guess my first question is, how does the capacity 
issue interact with the regional carriers and the big carriers 
for slots and just airports in general? How does that 
interaction work? So anybody that wants to try to answer that, 
I appreciate it.
    Mr. Childs. I will take a shot at it, if I could. Our 
business model that we have at regional carriers, to be clear, 
what we do is, as in my opening statement, we fly for the major 
carriers, and we are under contract with them to where we get 
paid a block hour, which is a flight-hour basis to fly the 
routes that they want us to fly.
    We do not have any material say in the slots or how we are 
scheduled in the big cities. That is completely up to the major 
carriers that make all those decisions for us. We just go where 
they want us to go and make sure we coordinate it and do it in 
a very safe and effective manner. But we don't have any say 
relative to how we are utilized in those big areas.
    Mr. Gibbs. Mr. Tilden, I see you are biting at the bit 
there.
    Mr. Tilden. Yeah, I think this is an interesting time in 
our country. These airports were built 40, 50 years ago. In 
some cases a runway was added 10 or 15 years ago. But 
facilities are constrained. I think almost every airport in 
Alaska is in significant--every big airport, LAX, San 
Francisco, Portland, Seattle, is significantly constrained. I 
just think that is a fact of our future.
    To points that others have made, I do think this is a time 
for substantial investment in infrastructure. I think folks are 
doing this. We are on board with that. I think the industry is 
a lot healthier today than it was 10 or 15 years ago, so 
airlines are better able to support these very substantial 
capital programs.
    And I think airspace is a part of that. So we need more 
capacity in the airspace. We need more capacity at the airport 
itself.
    Mr. Gibbs. That is the other part of my question, capacity. 
So we have got the issue with runways, getting passengers 
through the terminals, and then issue with airspace, so they 
are obviously intertwined. So if we ever get the NextGen 
adopted and moving on, does that solve that airspace issue?
    Mr. Tilden. That will go a long way to helping. There are 
constraints, airspace, runways, terminal gates, even roadways 
in front of the airports, there are constraints sort of at 
every step of the process. But airspace is certainly a big one.
    Mr. Gibbs. Go ahead.
    Ms. Nelson. Congressman Gibbs, I think it is also important 
to recognize the interplay between the regionals and the 
mainlines for the people who make the airplanes fly. As Mr. 
Childs testified, the regional airlines provide 45 percent of 
the lift in the domestic market, but the pilots and flight 
attendants are also being paid at 45 percent the rate, even 
though the same passengers are buying the same tickets and 
expecting to get to the same destinations. So it is an 
important piece within a part of all this discussion.
    Mr. Gibbs. Since you brought that up, Ms. Nelson, I saw, it 
must have been about a year ago, an article in a newspaper, and 
I was really taken aback by what they were saying the salaries 
were for regional personnel. And as I recall, I think, I don't 
know if it was a pilot or the copilot, could be around low 
$20,000 annual pay. Is that correct?
    Ms. Nelson. That is correct. It is insufficient, and it is 
part of the reason that you have twice as many pilots with 
certificates to fly today as are performing the jobs today. If 
we can increase those wages and provide a living wage for these 
people, we will encourage people to enter the market.
    Mr. Gibbs. So you just said there are twice as many pilots 
that are available, they are just not, because they have got to 
find other jobs to support their families. Is that what you are 
saying?
    Ms. Nelson. Correct.
    Mr. Gibbs. OK. Anybody want to respond to that?
    Mr. Childs. Yeah, I would love to respond to that. I think 
that there has been a tremendous move and shift in compensation 
in the last couple years with pilots and some flight attendants 
as well. And it is important to note, as we went through the 
statistics early on in my testimony, and in my written 
testimony, we are the only source of travel for over 60 percent 
of the airports that we serve.
    We have never really come out of service at SkyWest or 
ExpressJet due to a lack-of-pilot scenario. We have come out 
because it didn't make economic sense. Now, other carriers 
outside of us do have a very, very difficult time, and all of 
us see a very significant pilot shortage on us today, and a lot 
of people believe that there is a very strong inventory out 
there.
    I can tell you from personal experience, because we hire 
them and we interview them and we train them, that that is 
absolutely not the case. We are deeply concerned about the 
statistics as it is moving forward in the next 3 years. There 
are a lot of retirements at the mainline carriers, and there 
simply is not enough backfilling them as of today. So we need 
to do some things to make sure that we fix that.
    Mr. Gibbs. Thank you, Chairman. My time has expired.
    Mr. LoBiondo. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Tilden, in your written testimony you discussed RNAV 
[area navigation], instrument procedures and such, and said 
nationwide it is 4 percent. For your flights, it is about 4 
percent. And Sea-Tac, do you have a percentage?
    Mr. Tilden. I do not have that percentage with me. Despite 
Greener Skies, it isn't 25 percent even.
    Mr. Larsen. Oh, yeah?
    Mr. Tilden. Yeah. It is less than that.
    Mr. Larsen. And what steps, either nationally or even at 
Sea-Tac, could be done to increase that to something higher 
than it is?
    Mr. Tilden. Yeah. The situation we have is that these 
Greener Skies or RNP [required navigation performance] 
approaches have to be approved for every approach to every 
runway end at every airport. So Sea-Tac there are three 
runways, so that means there are six runway ends, and there are 
two or three approaches to each runway. And there is noise--one 
of the other gentlemen spoke to noise--noise is a big part of 
the review process. The FAA takes time to develop the 
procedure.
    So what we have is a one-by-one approval of each of those 
approaches. And I just think somehow we need a much more 
rapid--in my own way of thinking about this, there should sort 
of be a default view that these approaches, this technology is 
better than what we have today. Even though the noise may be a 
little bit, it will be an engine at idle power, and with GPS it 
will be the same track every day. It may hit one house more 
than the current system, but there will be way less noise with 
this new technology than we have with the old. So some sort of 
fast-tracking of those approaches I think would help us.
    Mr. Larsen. Yeah. So it is not just a matter of different 
approaches. It is also in how you operate that approach as 
well, is what you are saying?
    Mr. Tilden. Yes.
    Mr. Larsen. If you have the same kind of approaches, but we 
still do the stairstep in and out, we are not really taking 
full advantage of the technology.
    Mr. Tilden. Correct. Correct. But I think in the perfect 
world, these approaches are designed so that the airplane at 
altitude, 38,000 feet, it goes to idle power, and it stays 
there until maybe a little bit of a true-up just at the end 
before it touches down.
    Mr. Larsen. Just don't tell your passengers that.
    Mr. Tilden. Safety is number one above everything else.
    Mr. Larsen. Yeah, I know. Just flew in yesterday.
    Ms. Nelson, could you give a little more detail on flight 
attendant fatigue and why it is an important issue to you all?
    Ms. Nelson. Yes, I appreciate that very much. Flight 
attendant fatigue is something that we have been working on 
addressing for the last 30 years. The first duty and rest 
regulations went into place in 1994, and they were essentially 
a dart thrown at a dart board just to get something on paper.
    Then-Chairman Norman Mineta suggested that there should be 
a 10-hour free-from-duty rest. And the reason for that is what 
we have seen through the fatigue studies, seven fatigue studies 
commissioned by Congress that show that there needs to be more 
rest in order to avoid fatigue. If you can imagine, that was 
the conclusion.
    And so, in order to get that proper rest, because of the 
duties that have to be completed during that rest time as well, 
it is important to have the 10 hours' rest that is equal with 
our flight deck counterparts that is now in place.
    And we are adamant to get this done, especially with the 
increased duties and less staffing that flight attendants have 
on board, with more opportunity for error with fewer of us 
handling more passengers. It is simply unacceptable. We have 
got to address this fatigue issue and have equal rest with our 
flight deck counterparts.
    Mr. Larsen. Thanks.
    Mr. Hete, I believe the current administration pulled back 
a rule from FMCSA [Federal Motor Carrier Safety Administration] 
on lithium, transporting lithium batteries. But I understand 
you support the ICAO's [International Civil Aviation 
Organization's] work to improve the standards for transporting 
lithium batteries. Do you have a consistent pattern about how 
you transport lithium?
    Mr. Hete. Yeah, I think it is critical, because if you look 
at our customers, DHL, for example, everything that we handle 
for them throughout their North American network is an 
international ship, either originating or destinating in an 
international environment. And so if you have a mixed bag of 
rules and you don't have harmonization of those rules, you have 
an exposure to a shipment getting into the system without 
following prescribed procedures, and no one wants to see that 
happen. So it has got to be consistent across the board.
    Mr. Larsen. Yeah, thanks.
    Mr. Chairman, I will yield back and let someone else have a 
chance. Thanks.
    Mr. LoBiondo. Thank you.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Mr. Childs, thank you for appearing, and for the whole 
panel here today. I am from far northern California, where--
including airports such as Chico and Redding--until 2014, Chico 
had service from SkyWest.
    And I know that regional airlines do face unique 
challenges, et cetera. And some of the testimony I heard from 
the panel here that they can operate between the smaller 
airports, but this is also at the behest of what the parent 
airline that you are contracting with requires.
    So is it different to operate just between the smaller 
airports or when you have to tie into a larger one where the 
major aircraft and the parent airline is operating? Is there a 
difference in the way you can operate that way? Do you have 
more freedom to set rates or types of service, numbers of 
trips, et cetera, like, say, Chico to Redding or Redding to 
Oregon, places like that?
    Mr. Childs. Yeah. So let me go back, because we miss 
serving Chico, honestly. And from our perspective on how that 
happens, there are some models that we do under a prorate 
arrangement, where we do have some freedoms to do some things. 
That only constitutes about 10 percent of our particular model, 
and many regional carriers don't even have that model.
    So back historically, when it was with Chico, we enjoyed 
great service there. We did it with a turboprop, a 30-seat 
Brasilia. And as we continued to evolve as a company, we 
started to take larger aircraft, and as we continued to execute 
on some good strong compensation models with our people. 
Unfortunately, what happened was that it did not make economic 
sense and we couldn't do it profitably there.
    So that technically was one of our decisions that we also 
made with our partner. We were doing it with United at the 
time. And that was one at which the cost was prohibitive 
because of certain elements of our business model where that 
service was----
    Mr. LaMalfa. Understood. We had some airport 
representatives, as was mentioned earlier, last week, and some 
of that tied into the conversation.
    So if a 30-seat turboprop plane, as you mentioned and they 
talked about last week also, those are being phased out, what 
is the size of the aircraft, the more regional jets? Is that 
the volume part of the reason that it is priced out on more 
regional airports like that?
    Mr. Childs. Yeah, that is exactly----
    Mr. LaMalfa. Sixty, seventy passengers, is that what you 
are dealing with?
    Mr. Childs. Yeah. So the majority of our fleet is a 50-seat 
jet. And we now are taking more new aircraft that are at 76 
seats with first-class configuration and longer range and that 
type of stuff. So that is the trend. That is what the 
manufacturers are making.
    You bring up an excellent point, because there are cities 
that, from our economic model, we can't serve anymore. We have 
gotten bigger, and certainly, given our compensation strategy 
with that, we can't serve with a 30-seat aircraft anymore. 
There are a lot of other carriers that can, and they are the 
ones that are struggling with attracting pilots and they are 
the ones that are struggling with some of the things that they 
can do to actually execute on those plans.
    So, unfortunately, Congressman, your city is an interesting 
case study about what our situation is, because our economic 
model is very volatile and it is one which it can't bear a lot 
of fluctuation relative to costs. And that is kind of what we 
have to work with within our industry.
    Mr. LaMalfa. Are the facilities themselves part of the 
issue, being able to handle, versus the turboprop aircraft the 
jet, the jetway, or what are some of the issues with that that 
the facilities might need more upgrades on to accommodate a 
newer----
    Mr. Childs. There are a lot. If this industry continues to 
evolve the way it is, away from turboprops to jets the same way 
that we did, there are a lot of small airports that need to 
make airport adjustments--longer runway, wider runway, 
emergency equipment, those types of things--to accommodate the 
jet.
    We are working in no less than 10 cities since we pulled 
out with turboprops and want to go back in with 50-seat 
aircraft. If it is economically viable, that the communities 
need to upgrade their airports and their facilities to 
accommodate a 50-seat jet, which would be the next step for 
most of these communities.
    Mr. LaMalfa. Well, Chico, for example, has a 6,700-foot 
runway and I have seen 737s take off there. So that is probably 
not the issue there, right?
    Mr. Childs. Not in Chico, no.
    Mr. LaMalfa. OK. Is there anything that Department of 
Transportation regulation-wise that are causing any kind of 
imposition to be able to do what you need to do, either on the 
regional basis or in its integration with the larger carriers 
or larger airports?
    Mr. Childs. And I don't know if there is anything that the 
Department of Transportation specifically can do, but in my 
opening statements we talked a lot about some solutions to keep 
the regional airline viable and strong. We fundamentally 
believe that if we keep a strong stream of pilots coming into 
the industry, good things happen all around. Everything becomes 
more safe. We can make more clear decisions relative to some of 
the things that the manufacturers want to make.
    I mean, part of our problem, particularly with Chico, is if 
it is not supportive of a 50-seat aircraft, we need a 
manufacturer that makes an aircraft that can fit the size of 
your town. And the manufacturers simply don't want to make that 
aircraft, because they don't have confidence that we have a 
strong pilot stream within the industry.
    So the industry needs confidence about the fact that we 
will have pilots. As an entity, you are comfortable that we are 
going to do what it takes to do it safely. But, again, the 
other thing that we can do is do some of these restricted ATP 
things, which actually enhance safety.
    We are not out here to reduce the 1,500-hour rule. I 
actually like the rule, and I think that that is a good mark. 
But I think that we know now that there are some things from a 
safety perspective that we can have some alternate pathways to 
help people get integrated into the industry.
    Mr. LaMalfa. I am sorry, I have to yield back.
    Thank you. I appreciate the answers.
    Mr. LoBiondo. Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I know Mr. DeFazio, Ranking Member DeFazio had talked about 
the Middle Eastern airlines and the unfair competition. We want 
to make sure that we have rules that are in place that help the 
airlines, the airline employees, and the flying public.
    I wanted to raise another related issue in regard to 
international competition in the Norwegian Air International. 
As most of you probably know, NAI is flying as an Irish airline 
with flight crews employed by contracts that are governed by 
the laws of several Asian countries. It sort of leaves you 
wondering who the regulator is here.
    Clearly--well, unfortunately, this was approved here in the 
U.S. I would assume that, going forward, there may be more 
attempts to do something similar. I think it really undermines 
our Open Skies agreement in regard to maintaining labor 
standards.
    And so I wanted to ask Ms. Nelson what the effect of 
something such as NAI has on your members' employees?
    Ms. Nelson. Thank you, Congressman Lipinski.
    Yes, this is a grave concern for us. What Norwegian has 
done here is they have created a subsidiary with the Norwegian 
name to essentially hoodwink the public and regulators to 
believe that they are going to be flying under the same 
standards, high standards that we would expect from Norway. As 
a signatory to the U.S.-EU Open Skies agreement, that was 
negotiated based on the idea that we would maintain the high 
labor standards in the U.S. and EU. None of the other 
provisions would have gone forward unless that first standard 
was met.
    And yet, the NAI permit was granted, setting aside, 
essentially, article 17 bis. Not saying that it wasn't being 
violated. It is being violated with this flag of convenience in 
Ireland, which will allow Adecco or OSM, essentially these temp 
agencies that hire out aviation workers, pilots and flight 
attendants and other workers, from anywhere in the world where 
they can find the lowest labor standards.
    We cannot compete with that. Not only that, but there are 
U.S.-based Norwegian flight attendants working today, working 
for Norwegian today. What Norwegian has attempted to do is to 
also hoodwink the public into believing that the NAI 
certificate needed to be approved in order to offer U.S. jobs, 
when, in fact, we have no assurances from Norwegian that they 
will continue to hire under U.S. or European contracts once 
this takes hold.
    Our European counterparts told us that their airlines were 
very honest with them that they were opposed to this flag-of-
convenience model that NAI sets up, but if it was approved they 
will have to immediately compete within 2 years' time. SAS has 
already filed for an Irish certificate just since this permit 
has been approved. So we are seeing this. This is going to be a 
faster destruction than there was with the flag-of-convenience 
model with U.S. shipping, where now we see Liberian flags 
flying in our ports. All of our airlines will be choked out, 
because they will not be able to compete.
    The flight attendants flying for Norwegian here today have 
just unionized. They are voting right now to join the 
Association of Flight Attendants, because we are going to beat 
back these temp agencies who form short-term contracts with 
them. When they get too old, too fat, they are the wrong color, 
they don't go along, they can just end their contracts when it 
comes to the next time. They only have a 4-year pay scale, 
because they do not intend for these people to stick around.
    These are some things that we beat back in 1946, and this 
is where our aviation industry is headed if we allow the flag 
of convenience to remain in place, if we allow Norwegian to 
continue to hoodwink the public and allow other carriers to 
follow their suit, to follow this flag-of-convenience model for 
putting down their flag wherever they need to in the world so 
they can find the lowest labor standards and compete based on 
that.
    Our airlines can't compete. U.S. aviation workers can't 
compete. And the reality is that 300,000 good U.S. aviation 
jobs are at stake here.
    Mr. Lipinski. Thank you.
    Can I have another minute, Mr. Chairman? You can say no.
    Mr. LoBiondo. Go ahead.
    Mr. Lipinski. Sorry, I will yield back.
    Mr. LoBiondo. Go ahead.
    Mr. Lipinski. Very quickly. Mr. Tilden, Mr. Larsen went 
through some of what you are doing to increase efficiency. I 
know you have done some work with--you did a flight with 
biomass fuel. You work with Boeing. Boeing uses the CLEEN 
[Continuous Lower Energy, Emissions, and Noise] program to 
research for engine efficiency. Is this something that is also 
very helpful to what you are trying to do with efficiency?
    Mr. Tilden. It is. We are really proud. I think it is still 
the case that Alaska Airlines has the most fuel-efficient fleet 
in the industry. That is also true of Horizon Air for regional 
airlines. And we have been a big partner with anybody that 
approaches us with biofuels or other alternative fuels.
    There is a big role for the science community and the 
engine manufacturers and others in that. What we are really 
trying to do is demonstrate that there is a market. If somebody 
can bring a new fuel to the market, we have run several of 
these flights, commercial flights with biofuels on board, just 
to demonstrate, if this fuel does come to market in a feasible 
fashion, we will buy it.
    Mr. Lipinski. Thank you. I yield back.
    Mr. LoBiondo. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman, and thank you for 
granting Mr. Lipinski the extra minute. That was a great 
question. I am supportive of that.
    And also, I want to thank you for asking the question of 
Ms. Nelson, because you took mine. So I want to add my name to 
being supportive of that question too.
    But thank you for your response, and thank you for what you 
are doing. You know, we want to make sure that we offer 
bipartisan consensus on some of the concerns that were 
addressed.
    Mr. Childs, during your opening remarks--and I fly a lot of 
regional airlines in central Illinois, thank you for what you 
do in keeping many of my regional airports active--but you also 
mentioned something about student loans and student debt. I 
have got a bill I would love for you to take a look at that is 
called the Employer Participation in Student Loan Assistance 
Act. I figured our team probably could have thought of a 
shorter title, but they didn't, so I will address that later.
    But what it does is it creates a private sector incentive 
for companies like yours and others to have another tool in the 
toolbox to address student debt, and that is a tax incentive to 
provide up to $5,250 a year to your employees to pay down their 
debt. The employees wouldn't be taxed on it. It is a win-win, 
addresses a big problem. Please take a look at that. We would 
love your support.
    Now, Mr. Tilden and Mr. Childs, my colleague Mr. DeFazio 
talked a lot about ATC reform. He and I are good friends. He 
may not admit that, but I do. But I am on the other side of 
that debate. I support ATC reform. I think NextGen's rollout 
has been a continuous inefficient, expensive rollout that we 
are not seeing progress in.
    Now, there were a lot of charts put up. I don't have any. 
But I want to hear from you. What are your thoughts on those 
charts? What are your thoughts on ATC reform? How can we make 
the aviation industry better through ATC reform?
    We will start with Mr. Tilden.
    Mr. Tilden. Thank you, Congressman Davis. If I could, I 
just wanted to support Chip Childs on the pilot training. I 
think this is a real issue for our country.
    Mr. Davis. It is.
    Mr. Tilden. Alaska feels this issue as well. When I went to 
Pacific Lutheran University with Congressman Larsen, I got 
student loans that were guaranteed by the Federal Government. I 
think if we could bring something like that to the pilot 
profession, the mechanic profession, I think it would be really 
beneficial and Alaska would certainly be supportive.
    On ATC reform, I know it is a contentious issue. I know 
that people feel differently. How we feel about this is that we 
have actually had this--it actually isn't a technology problem 
anymore. It is a technology deployment issue.
    The technology has been proven, it has been in place for 21 
years, and the speed is just not what it could be.
    And I personally think it is a time--and I do respect the 
diversity of opinion on this, but I personally think--flying is 
about freedom. This is the greatest country in the world. We 
invented flying here. Almost everything about flying was done 
in this country.
    I think it is a time for us to move forward and create 
airspace that is the most modern and in a time of more and more 
congestion is the most advanced in the world. And I think 
safety will actually be enhanced if we say to the FAA, ``You 
are responsible for making sure we are safe at every single 
juncture,'' and separate the operation of the system into 
another company or another organization that has whatever 
oversight it needs to have, but has stability with funding, it 
has stability with governance, and it has a singular focus to 
give us the best airspace system in the world.
    Mr. Davis. And what you are saying is the status quo is not 
achieving any of those goals.
    Mr. Tilden. The status quo--I personally believe that 
demand is growing at a rate that is higher than technology 
deployment. So the delays are getting worse and worse by the 
year.
    Mr. Davis. And costing taxpayers.
    Mr. Tilden. Yes.
    Mr. Davis. Thank you.
    Mr. Childs.
    Mr. Childs. Well, he is my partner, so I shouldn't probably 
say much more than what he did. He did a great job.
    The only thing I want to emphasize is that operating a 
regional aircraft, we want to be very careful about how it is 
funded. No matter what the reform is, you can get into a dots-
on-the-screen scenario, but we fundamentally, like we have 
talked about, the volatility of our model is tight. And we just 
want to make sure that it is a fair representation of the 
economics within our model.
    But we are 100 percent supportive of the direction that you 
are going down with that. And I agree with Mr. Tilden on those 
points as well.
    Mr. Davis. All right.
    Any additional points, Mr. Tilden, you want to make on ATC 
reform----
    Mr. Tilden. Not----
    Mr. Davis [continuing]. Comparatively speaking to any other 
countries?
    Mr. Tilden. I think I made the point in my testimony. There 
are different models in different countries, but most 
industrialized countries in the world have moved to a separate 
air traffic management organization, separate from the FAA or 
the safety oversight, aviation safety oversight.
    And I think the examples are mixed. There are some great 
examples. There are examples that aren't so good. But there are 
models out there for us to look at if we choose to.
    Mr. Davis. All right. Thank you. I yield back.
    Mr. LoBiondo. I would like to now recognize Mr. Tom Brady--
no, I am sorry, Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    Ms. Nelson, I just want to kind of draw a big bold line on 
this. The other day when I took a late flight home, 9 o'clock I 
landed--actually, a little before 9. The 8-hour rest period, 
last passenger gets off, flight attendant steps off the plane, 
the 8-hour rest period starts, bang. A flight attendant has to 
walk out to the sidewalk just like me, get a ride, usually from 
a van, to a hotel--I am going home, they are going to a hotel--
check into the hotel, grab something to eat, and go to sleep.
    So let's just assume, for the sake of discussion, that the 
8-hour rest period starts at 9 p.m., let's assume they are 
asleep by 11 p.m., which, of course, nobody I know that works a 
9-to-5 job is asleep at 7 p.m., but let's just assume it for 
the sake of discussion.
    In order to get back to work by 5 a.m., which is the 8-hour 
period, you have to do the same thing in reverse. You have to 
wake up, grab a shower, check out of the hotel, have a little 
something to eat, grab a ride back to the airport, get off that 
shuttle, walk through security, walk down, and the 8-hour shift 
starts the minute you step on that plane.
    That means that has left you with--now, again, that 
presumes you have had 2 hours from the end of your shift to the 
time you are actually asleep. If it takes you 2 hours to do 
that, it takes you 2 hours in the morning, that leaves you 4 
hours to sleep. Now, as I understand it, pilots have 6. You 
have 4.
    How many flight attendants were lost on 9/11?
    Ms. Nelson. Twenty-five.
    Mr. Capuano. How many flight attendants were on the flight 
with Sully Sullenberger when he landed in the Hudson?
    Ms. Nelson. Three.
    Mr. Capuano. Did they do their job?
    Ms. Nelson. They did their job perfectly.
    Mr. Capuano. And their job was a little bit more than 
serving drinks and picking up after my trash. It was saving my 
life.
    Ms. Nelson. That is correct.
    Mr. Capuano. I only do this--I know you know all these 
answers and I know the people at the panel and I know the 
people here know it, but I do it to make sure that people 
understand, to the best of my ability, that flight attendants 
are a lot more important than what we see on a regular basis.
    I don't want to see a flight attendant in an emergency 
situation. And when they ask me when I am sitting in the 
emergency row if I am willing to help, and they say, you really 
don't want me opening that door, that is a problem. And I want 
a flight attendant there who is trained on how to help me.
    So I actually don't think you are asking for much. I think 
you are asking for ridiculously little. And I hope that 
Congress can do what is long overdue to get this done.
    Mr. Tilden, I would like to shift gears a little bit. I am 
a big supporter of NextGen. I totally agree with everything you 
said about trying to catch up in technology and try to make 
things efficient. But does NextGen alone require a specific 
flight path to make it work?
    Mr. Tilden. No. No. I think NextGen is about----
    Mr. Capuano. It allows more options.
    Mr. Tilden [continuing]. A lot of different technologies to 
shorten the travel time.
    Mr. Capuano. As an executive of a growing airline, do you 
ever concern yourself with the noise of the people who live 
under these flight paths?
    Mr. Tilden. Yes.
    Mr. Capuano. I figured you would. You should, and I believe 
that. So, therefore, there is nothing that you know about in 
NextGen that would prohibit the FAA and my NATCA [National Air 
traffic Controllers Association] people from changing the 
flight paths to spread whatever noise is there. Noise is noise, 
I get it. But there is no need to have a flight path 
continuously going over one house and only one house. Is that a 
fair statement?
    Mr. Tilden. Yes. I think it is a fair statement.
    Mr. Capuano. The reason I ask, because many of us have had 
some trouble. The FAA has finally acquiesced to try to take a 
look at it. I think we can have modern NextGen equipment, 
saving you some money, saving me some time, and still concern 
ourselves with the quality of life of people who live under 
flight paths.
    Mr. Tilden. I agree with you, sir.
    Mr. Capuano. Thank you. That is really all I want to say.
    Mr. Childs, would you agree with that?
    Mr. Childs. I would agree with that, yes.
    Mr. Capuano. And, Mr. Hete, would you agree with that?
    Mr. Hete. I would agree with that.
    Mr. Capuano. I am not going to ask you two guys, because 
you don't own airlines. If you did, though, I know you would.
    I guess I am just going to use the last 30 seconds I have 
to also add my voice to the Norwegian thing. The Norwegian 
thing is horrendous. It is an absolutely wrong decision and it 
is heading in a direction exactly as you described, Ms. Nelson. 
It is jeopardizing American jobs.
    Mr. Tilden, you will not be able to compete if this goes 
undone.
    I also want to add one more thing. Mr. Tilden, what is your 
largest airport that you service?
    Mr. Tilden. Los Angeles.
    Mr. Capuano. Los Angeles. If I start an airline tomorrow 
and I wanted to fly to L.A., and California said, ``You know 
something, Mike, we are going to give you, your new airline, $4 
billion to be able to fly into L.A. so you don't have to pay 
quite so much landing fee,'' do you think that would be fair?
    Mr. Tilden. No. And to be fair, I wasn't asked. But Alaska 
actually has not taken a position on the Norwegian Air 
International.
    Mr. Capuano. I am not asking you to take a position. I am 
just kind of using you to like----
    Mr. Tilden. No. And I said it earlier, but just to be 
really clear, as a little airline ourselves, we are 6 percent, 
5.5 or 6 percent of the industry now with Virgin America. At 
every opportunity, we want to make the case that we want a 
level playing field.
    And the simple point I made with the Gulf Coast airlines is 
that we are competing against airlines that can go into 
companies and say, ``We are a one-stop shop, we can sell you 
tickets all over the world.'' Alaska can't. And in a network 
business, we need to build partnerships with others to have any 
shot----
    Mr. Capuano. And that is why I am not asking you to knock 
your partners. That would be wrong.
    Mr. Tilden. Gotcha.
    Mr. Capuano. But fair is fair. And fair is a level playing 
field, the Government not paying me to do what somebody else 
already does.
    Mr. Tilden. Yes, I agree.
    Mr. Capuano. Thank you, Mr. Tilden.
    Mr. Chairman, it looks like I am over. You are getting kind 
of lax.
    Mr. LoBiondo. You are always over.
    Mr. Capuano. I yield back the remainder of the time I don't 
have.
    Mr. LoBiondo. Just for the record, you are always over.
    Mr. Webster.
    Mr. Webster. Thank you, Mr. Chair.
    Mr. Tilden, you mentioned constrained capacity in your 
testimony. And I had a question about, are you satisfied with 
the way you can obtain a gate slot at an airport, in general? 
Do you think it is balanced?
    Mr. Tilden. At most airports in our country, it is actually 
a good system. The Government gives these airports money and, 
as a consequence of receiving Federal money, they are required 
to create access for airlines like Alaska that might want to 
come into Chicago or Indianapolis or what have you.
    There are a handful of highly constrained airports. And I 
think smaller airlines like Alaska would say, ``No, we would 
like more access to these airports, and if we had more access 
we will bring our brand of service, different fares'' and so 
forth.
    So I think in the most congested, slot-controlled airports, 
more access would be a good thing for competition and for 
smaller airlines.
    Mr. Webster. So how would you propose to remedy that?
    Mr. Tilden. You know, I didn't sort of put a lot of thought 
into this today, but in markets like JFK, as an example, I 
think we got into there a couple of years ago with one red eye 
flight. I think as we look to make changes in the flight 
schedule at JFK, we might allocate a certain number of slots, a 
certain number of landing rights and departure rights for 
airlines that don't have capacity, airlines that will come in 
and bring competition to the marketplace.
    Mr. Webster. I have another question about cybersecurity. 
There was another panel a while back, I don't remember exactly 
when, and they downplayed cybersecurity in the flight industry. 
And then, on the other hand, I was in another committee, and 
they were talking about the fact that even Barbie dolls have 
IPOs. And I am not sure why, maybe just because they can do it. 
I don't know. But it seems like if that is open, maybe there is 
a problem.
    Do you see, or can you even talk about in a public forum, 
what might be the problems in cybersecurity?
    Mr. Tilden. I can speak to that. Are you talking about 
cybersecurity with respect to airlines generally or with 
respect to----
    Mr. Webster. Yes. Well, the more specific you can get, 
great.
    Mr. Tilden. Yeah. No, I think it is a big, big concern for 
every U.S. company. I think it is a particular concern for 
airlines. You have seen airlines have had some outages, some 
issues in the last 2, 3, 4 years. Alaska had an outage 5 years 
ago that required us to shut down our operation for half a day. 
I think folks are dealing with it. And it is one of these, 
whatever, the bad guys are moving at a certain rate, and we are 
trying to move as fast as we can.
    At Alaska, I will tell you that we have quadrupled our IT 
budget in the last 5 years. We have gone from roughly $50 
million a year to roughly $200 million of spending on IT. 
Cybersecurity, I would call that defensive. A lot of that 
spending is defensive. It protects our operation the way it is 
today, but it doesn't really add new features or functionality 
or benefits for our customers.
    Mr. Webster. Thank you very much.
    I yield back.
    Mr. LoBiondo. Mr. Carson.
    Mr. Carson. Thank you, Mr. Chairman.
    Mr. Hete, in your written testimony you note that ATSG 
provides more and longer flight crew rest opportunities than 
your passenger counterparts. Would you care to comment further?
    And you noted your opposition to any new aircraft noise 
restrictions. As you know, noise is a very contentious issue 
for Members of Congress. What steps would your airline 
subsidiaries be willing to reduce with regards to local 
communities' exposure to aircraft noise?
    Mr. Hete. Well, I think it would be, with the existing ATC 
system, we have to follow prescribed flight paths to begin 
with. So there is not much you can do in regard to controlling 
noise other than operate the aircraft according to the 
manufacturer's specifications and keep your engines as low a 
turn rate as possible. So we don't have a lot of flexibility in 
that regard today.
    Our concern is more if you expand and go to a Next 
Generation System, that it imposes more restrictions on us. 
Since most of our flying is done in the off-hours during the 
nighttime, since we service the express industry primarily, 
that we have a larger exposure I think in that regard to the 
time that people are sleeping. So it is a greater concern to us 
than it would be for the passenger carriers who operate in 
daylight hours.
    As far as the crew rest times, as I said, our operations 
are built around primarily a 5- or call it 5\1/2\-day-a-week 
operation. Most flights are one flight into a hub and maybe a 
shorter leg tagged onto it thereafter, and then the pilot is 
off duty for a considerable period of time. If they fly to a 
west coast, we have 36-hour layovers, for example, where they 
get the additional rest period. So it is not as great a concern 
for us, because of the limited number of flight legs that we do 
fly in a given day.
    Mr. Carson. Thank you.
    Ms. Nelson, we have heard from U.S. regional airlines that 
they are experiencing a growing pilot shortage, and this kind 
of shortage is often attributed to the 2010 requirement that 
airline first officers possess an airline transport 
certificate. As you know, this requirement raised the training 
prerequisite for first officers to 1,500 flight-hours.
    As president of AFA, you have a vested interest in aviation 
safety. Do you take a position on this issue and whether there 
should be any rollback on minimum flight-hours for first 
officers?
    Ms. Nelson. The Association of Flight Attendants supports 
the position of the Air Line Pilots Association and the Colgan 
families who are here today, and we believe that industrial 
issues should not inform safety issues in aviation.
    Mr. Carson. I yield back, Mr. Chairman.
    Mr. LoBiondo. Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman.
    Ms. Nelson, could you elaborate a little bit more about 
your concerns with voice calls on airplanes?
    Ms. Nelson. Yes. We have incredible concerns with voice 
calls on airplanes. We have concerns in many ways.
    First and foremost, our members are charged with keeping 
order in the cabin, and more and more we are having to 
deescalate conflict. We are concerned about the conflict, that 
this will increase as people are having to listen to very loud 
business meetings or conversations with new boyfriends or 
girlfriends or relationships that are ending. Whatever those 
conversations may be, people don't want to hear it in the space 
of the cabin where they are closer together than they have ever 
been before.
    But even more so, we have a concern with security. And if 
terrorists are able to communicate in real time through voice 
communications, Richard Reid's bomb likely would have gone off. 
Flight attendants would not have been able to thwart that 
effort. If we have voice calls allowed in the cabin, we will 
not be able to see those who are intending to use this for ill 
purposes. They will not stand out, they will blend in.
    And so, for those reasons, we are adamantly opposed. And we 
are also opposed, we believe, because we also are often the 
strongest advocates for the passengers in our care, and they 
are unanimously opposed to voice calls in the cabin.
    Mr. Westerman. I believe you just addressed a question 
about pilots, but what can be done from a policy standpoint to 
encourage more young people to pursue aviation careers?
    Mr. Hete. I think from an aviation career standpoint, a lot 
of it is just awareness, for young people to be aware of what 
the opportunities are in the aviation community. I know there 
is a lot of focus on pilots, but we also operate an MRO, 
maintenance, repair, and overhaul operation. And from a 
technician standpoint, trained aircraft mechanics are in very 
short supply as well, just because of lack of familiarity of 
the opportunities there for young people to get into those 
career fields.
    Certainly from a pilot standpoint, the investment is 
significantly greater than you would have for a mechanic, for 
example. So anything that could be done to facilitate the 
funding of those certainly would be of long-term benefit.
    Mr. Westerman. And, Ms. Nelson, I saw a story recently 
about--I think this actually happened several years ago, but it 
was highlighting airline employees intervening in human 
trafficking. There was a young girl, who I believe passed a 
note in the bathroom, and found out she was being harassed or 
trafficked.
    Can you explain more about the progress of enhanced 
training required by our 2016 bill to help flight attendants 
detect human trafficking?
    Ms. Nelson. I would like to thank this committee very much 
for taking up that issue and mandating training for flight 
attendants to recognize and report human trafficking.
    The only issue is that there was not a process to implement 
that training or specific requirements about what would be 
contained in that training. And so we are working with our 
airlines to implement those programs to the highest standards 
possible, hopefully aligning with the Blue Lightning Initiative 
of DHS and DOT.
    And we are a little bit concerned that this is not moving 
as quickly as it should. We have heard from flight attendants 
over the years that they have seen something that just doesn't 
look right or thought about it after the flight but didn't know 
what to do at the time. So everyone needs to understand how to 
recognize it, what to do, how to report it, and how to get it 
to the proper authorities so that we can stop human trafficking 
in our skies.
    Mr. Westerman. I have got one final question, I guess more 
for the airline companies. I live in a rural district where 
what commercial airline service we got is essential air 
service, and I get complaints from my constituents on the 
quality of that service. So what can we do to get more--twin-
engine turboprops would be an improvement in some of these 
airports or even jet service--through the Essential Air Service 
program?
    Mr. Childs. Well, I think a lot of it has to do, quite 
candidly, with the economics and that type of stuff. I 
mentioned earlier that the best thing for us is to make sure we 
have got a very strong, ample supply of aviation professionals. 
I think reassuring the confidence with manufacturers, airplane 
manufacturers and that, so they continue to move technology in 
the right direction is a great thing.
    And more importantly, speak out to your carrier. I don't 
know which location you are meeting with, but there are a lot 
of great opportunities that are being left behind today 
throughout the United States relative to essential air service, 
great communities that deserve outstanding support. But some of 
the things that we have talked about in my previous written and 
oral testimony I think are very key elements to help us resolve 
that.
    Enhancing safety to making sure that we have got an R-ATP, 
make sure there is an awareness like was discussed about how 
good the aviation community is. We need more diversity within 
it. And then we need some loan programs for pilots that help 
them get to a very lucrative career, what is out there today.
    All of that stuff will come back to small communities. But 
we have got to get granular, more confidence in the regional 
airline side to make sure that we get the right aviation 
professionals in there to help even have that conversation.
    Mr. Westerman. Thank you.
    Mr. LoBiondo. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Ms. Nelson, you detailed concerns about pilot pay. Can you 
explain about flight attendants' pay and where you stand?
    Ms. Nelson. Yes. Thank you very much for that question.
    We have the same concerns about flight attendant pay in the 
regional industry. In fact, flight attendant pay is lower than 
the figures that were given today for pilots.
    So, for example, actually sharing the panel here today, Mr. 
Childs, SkyWest does a better job of paying flight attendants 
in the regional industry. But across the board, on average, 
flight attendants working on regional jets under the flag of 
the mainline carriers and serving the same passengers are 
making 45 percent less.
    Mrs. Napolitano. Why?
    Ms. Nelson. And that is concerning, because they are also 
aviation first responders and last line of defense in aviation 
security.
    Mrs. Napolitano. Why are they getting less pay?
    Ms. Nelson. Because of what has been described here today, 
which is the volatility of the regional model that is very, 
very tight in these capacity purchase agreements with the 
mainline airlines. And those agreements have not built in 
enough ability for these regional carriers to provide 
sufficient pay to the people who are working for them.
    Mesa Airlines is a bottom feeder on this, providing 20 
percent less than the rest of the regional flight attendants as 
well. We are in the middle of a strike vote on that and trying 
to rectify that situation. But they also have very low work 
rules that include only paying for schedules. So if a flight is 
going from Chicago to LaGuardia and has to divert, has to hold 
in the air, has to stay with those passengers for upwards of 6, 
7 hours, depending upon what happens, they are still only paid 
the 2 hours that they were originally scheduled for.
    It is inhumane. It has got to change. And it is a problem 
with the general structure of the agreements between the 
mainline and the regional carriers, first and foremost.
    Mrs. Napolitano. Thank you. But one of the other questions 
that I had was the concern I have over subsidized foreign 
airlines in the U.S. market. I was wondering whether they have 
the same requirements for pilots and for the attendants, 
because if they are subsidized, we don't subsidize that to the 
size of what they do in foreign countries.
    Would you have any comment about the concern this brings up 
and the problem with any airline and how we could address it?
    Ms. Nelson. We have concerns that, of course, we don't have 
oversight over what those airlines are doing. So in some of 
these countries it is outlawed for workers to even organize, to 
bargain contracts, to band together, to beat back the 
discriminatory practices that we have beat back over the years.
    If they overtake our market, we will not be able to get 
that back again. So for every route that the U.S. airlines have 
to cede, those Gulf carriers are encroaching upon the U.S. 
market, which is decreasing their ability to actually compete 
with the network structures and ultimately will be choked out. 
And we won't have any say over how those workers are treated or 
what the safety standards are. We won't have any control over 
the industry that is providing service for Americans.
    Mrs. Napolitano. Well, I would like to ask you one question 
since you brought up the attendants. Are the attendants and the 
pilots given any mental health screenings? Because you deal 
with a lot of crazy people sometimes. And I fly twice a week, 
so I have seen it all, I have heard it all. Eighteen years of 
it. Mental health is beginning to be a major problem that we 
should have maybe training for the pilots and for the 
attendants.
    Ms. Nelson. So mental health is certainly an issue that we 
deal with for our union. And having unions and having 
professional pilots and flight attendants who are career 
employees is very important. We can provide resources and 
structures to be able to support people throughout their 
careers.
    So we have vibrant EAP programs where we address these 
issues in the workplace immediately. Their peers understand 
that they can report any concerns that they might have, get 
people the help that they need sooner.
    Mrs. Napolitano. But are they trained to recognize any of 
the symptoms?
    Ms. Nelson. Our EAP committees are trained to recognize 
those symptoms, to report that. And all workers are advised in 
unionized workplaces at U.S. carriers that they have the 
ability to use these resources to their benefit, to report any 
potential problems in a confidential atmosphere, to get help to 
those employees, get them off the job while they need to 
recover, and bring them back when they are healthy.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. LoBiondo. Mr. Rokita.
    Mr. Rokita. Thank you, Chairman.
    I thank the witnesses.
    Mr. Tilden, you said you are a pilot. Are you current?
    Mr. Tilden. Yes, sir.
    Mr. Rokita. What do you fly?
    Mr. Tilden. I actually bought a TBM now. I was in a Cessna 
182 for a long time.
    Mr. Rokita. Right. There we go. So general aviation for 
sure.
    Mr. Tilden. Yes.
    Mr. Rokita. I appreciate that. I also appreciate, if I 
understood your testimony to questions prior to that, a lot of 
the congestion and capacity issues aren't just in the air, 
right? You said that is at the airport, whether it is going to 
the airport, marshalling issues. You know, we have that issue a 
number of times trying to get to a gate.
    Mr. Tilden. Yes.
    Mr. Rokita. And, in fact, don't the airlines execute their 
schedule such that you have departures and arrivals generally 
coming together at the same time so you can facilitate the 
movement of passengers, so you don't have to pay people at 
extraneous hours if you don't have to, to make things more 
efficient, which I appreciate, correct?
    Mr. Tilden. Yes.
    Mr. Rokita. So that contributes to capacity and constraints 
and some things as well.
    I also understood from your testimony--and I haven't really 
heard this before, I think you said it very well--look, we are 
looking for fast tracking of approaches.
    Mr. Tilden. Right.
    Mr. Rokita. I am happy to work with you on that. I think 
that is a great idea. I am going to have you put up an approach 
I picked from Miami just kind of randomly. I don't know if you 
can read that. I don't know if we can get it any bigger.
    You have seen this if you are instrument-rated. This is a 
relatively simple approach. And you can see two-thirds of the 
way down to the right the profile view of that approach. And 
you see this is an ILS into 26-left at Miami, and you come down 
that approach and starting at about 3,000 feet, and for the 
next 6, 7 miles or so it is exactly what you are talking about.
    Mr. Tilden. Correct.
    Mr. Rokita. But I think what you are saying is that you 
would like to see that line continue on for 100, 150 miles out 
or whatever, so that you can idle the engines, which would help 
with sound. You can hit your numbers, hit your speeds, true up 
at the end if you have to, but otherwise, boom, you are in, 
right?
    Mr. Tilden. That is exactly right. So this is an ILS 
approach. And an ILS has two radio beams. It has got a 
localizer, which is the up/down--sorry, the lateral beam.
    Mr. Rokita. I only got 5 minutes, so we are not going to do 
a class now.
    Mr. Tilden. OK. But what you want is to get rid of that and 
have GPS a curved line from altitude down to the runway in.
    Mr. Rokita. Sure, but not get rid of this. I don't like 
that, because for some of us we use that still, because we are 
not coming from 30,000 feet or 200 miles away.
    Mr. Tilden. But it only extends 10 miles.
    Mr. Rokita. Right. It is simple enough. I think we are on 
the same point. We can get an approach for you, because we have 
a GPS approach that I can put up right now that would show the 
same thing. Within 2 or 3 years, we had GPS approaches plates 
pop up all over the country. They got that done.
    Mr. Tilden. Yes. Yes.
    Mr. Rokita. I don't see why they can't get that done for 
you, and I would like to work with you on that.
    At the same time, I don't see why you would testify, why 
you need to testify that that is the problem, that we need to 
give away the national treasure that is our airspace, not even 
lease or sell like we did with the Indiana toll road for $3.8 
billion, but give away the national treasure that is our 
airspace to facilitate that for you. I think there is just a 
much simpler way.
    And I would, Chairman, introduce, without opposition, 
apparently, hopefully, Mr. DeFazio's poster board for the 
record with unanimous consent, if I can have that. Whatever he 
was testifying with, I would like that in the record.
    Mr. LoBiondo. Without objection.

    [The chart can be found on page 17.]

    Mr. Rokita. Thank you.
    Because you want to do all that Mr. DeFazio pointed out to 
accomplish that line getting extended 100, 150 miles out, which 
I completely agree with.
    I think perhaps the bigger problem is maybe, not to put 
words in your mouth, these are mine, that once you do that, 
once you idle back and you set that course--and you could do 
this very easily, very safely, and you are hitting your numbers 
just like you say--you can't have anyone else get in your way, 
right?
    So if I am flying that approach coming in, not on your 
timetable, but my own timetable, you can't, because it defeats 
the purpose if you have to vector away, come back, idle back up 
to hold an altitude, which is exactly what our ATC 
professionals are there to do, to provide safety in an 
environment where we all have a right to use the airspace. And 
you, as a GA pilot, certainly in Alaska, know that we pay a gas 
tax, we have a right to that airspace just like everyone else 
for as much as we use of it.
    Mr. Tilden. Right.
    Mr. Rokita. And it works and it works very efficiently.
    So at least on the approach plate aspect of this, count me 
as a fan. Count me as someone who wants to get you there. 
Because not only is it the sound, you are saving a lot of 
money, because to run a turbine at a lower altitude is an 
extremely much more amount of fuel than at a higher altitude 
where they are designed to run.
    Mr. Tilden. I think we calculate 100 gallons and 1 ton of 
emissions per approach that is flown with this methodology.
    Mr. Rokita. This is the issue. It is easily solvable. We 
just did it with GPS approaches all over the country. We can 
get there without destroying the ecosystem that is our national 
airspace and where a lot of your future pilots for both you and 
the regionals are going to come from.
    I will shut up.
    Mr. LoBiondo. Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    This question is for Mr. Tilden, Mr. Childs, and Mr. 
Leocha. And, Mr. Leocha, I would like for you to answer first, 
followed by Mr. Tilden and Mr. Childs.
    With respect to flight pricing data, is there a legal or 
public interest requirement that requires that flight pricing 
data be public information that can be displayed or published 
by anybody, any entity, at any time; or, on the other hand, is 
flight pricing data proprietary information protected by 
intellectual property law, which enables the airline to control 
which entities can display or publish their flight pricing 
data?
    Mr. Leocha?
    Mr. Leocha. Thank you for the question.
    The airlines are common carriers, and there is a lot of law 
that says that pricing of common carriers is public 
information. At the same time, airlines should be allowed to 
operate and to sell their tickets through businesses of their 
choice.
    What we at Travelers United have been pushing for for years 
is for the release of all of the pricing data, including 
airfares and ancillary fees, so that we can then put together a 
good shopping engine and IT professionals can put together 
something which allows good comparison shopping.
    We are not trying to take away the choice of an airline in 
terms of who they would like to sell their tickets through, but 
we are trying to find out how we can comparison shop and 
understand what the final cost of the product is going to be.
    Mr. Johnson of Georgia. All right. Thank you.
    Mr. Tilden.
    Mr. Tilden. So on this subject, when we advertise a fare, 
Seattle to Los Angeles, for example, we are required to include 
all the Government fees and taxes in those fares as part of the 
advertised price, and those fees and taxes can be 20 or 25 
percent of the ticket price. So that is done. And if we try to 
sell that fare over AlaskaAir.com or through a travel agent or 
whatever third-party website it might be, those fares are all 
represented.
    I think where the industry pulls back is people that are 
saying, you are required to give us extra information on--it 
might be the charge for a bag or for a fruit and cheese tray, 
for any ancillary. And here is the important part of this, is 
these people all have a business model where they charge the 
airlines for that.
    And I think what we say is that that should be a commercial 
transaction. If it is in our interest to distribute through a 
travel agency that uses Sabre, then we should go negotiate that 
transaction with the travel agency that uses Sabre and provide 
the information.
    But to be compelled to and then to have to pay the fee to 
the global distribution service, I guess what we are saying is 
we don't see the commercial value. We think that we will 
actually have lower costs and lower fares for travel--and low 
fares is something Alaska cares about a lot--through lower cost 
and more direct distribution.
    Mr. Johnson of Georgia. All right. Thank you, Mr. Tilden.
    Mr. Childs.
    Mr. Childs. Yes, I would echo what Mr. Tilden said. We do 
not, within our business model, in any way distribute any of 
the sales of the tickets. We don't do any advertising, we don't 
do any of that. We just make contracts with the major carriers 
that fly from point A to point B. So for us, it would be not 
necessarily part of our business model or I wouldn't be able to 
have anything to say about it.
    Mr. Johnson of Georgia. All right. Thank you.
    Ms. Nelson, in your written testimony, you mentioned that 
the United States lags behind other countries in equalizing 
rest regulations. As you noted, the committee included a 
provision requiring a 10-hour rest between flight attendants' 
duty days and Fatigue Risk Management Plans in last year's FAA 
reauthorization.
    How would these requirements help create equality with 
other countries on flight attendant rest?
    Ms. Nelson. Thank you very much for the question.
    What ICAO has done is set standards that say that the 
flight deck and the cabin crews should have equalized rest, and 
has been very prescriptive about that and was very clear about 
that in 2009.
    What changed is when 117 went into place, FAR 117 for the 
pilots, the minimum rest moved to 10 hours' minimum rest, and 
the flight attendant rest regulations got left behind, even 
though we had participated in at the same time fatigue studies 
commissioned by Congress that concluded that flight attendants 
needed more rest in order to avoid fatigue.
    So including the 10 hours' minimum rest and a Fatigue Risk 
Management Plan that will help flight attendants identify when 
they are tired, how to avoid being tired, and how to stay 
rested longer is critical to ensure that we do not have flight 
attendants who are serving as aviation's first responders 
fatigued in our aviation system.
    It is a critical safety issue. And I want to thank the 
committee again for making this a top priority. And I also want 
to note that we have a leader in the industry at the table. 
Alaska Airlines actually does better than this. So there are 
some carriers who have negotiated better contracts, but we need 
to raise the standard across the industry, because the 8 hours 
that are in place today are simply not enough to avoid fatigue.
    Mr. Johnson of Georgia. Thank you.
    And I yield back.
    Mr. LoBiondo. Thank you.
    Mr. Leocha, how would you rate the performance of the DOT 
consumer protection efforts?
    Mr. Leocha. DOT's consumer protection efforts, when I first 
came to Washington back in 2009, were excellent. We had several 
big changes in terms of increasing the compensation for lost 
luggage, delayed and damaged luggage. We had increases in the 
denied boarding compensation. They began with the tarmac delay 
rules. And we also have the Full Fare Advertising rule that 
came into effect. And on top of that, the 24-hour rule, where 
if you make a mistake you can go back and you have got up to 24 
hours to cancel your flight.
    Over the last 4 years, the Department of Transportation has 
been doing an awful lot of studies and rulemakings, and I have 
filed literally hundreds of pages of comments. However, nothing 
has really changed.
    So at this point, we are in a situation where the system is 
operating. As you heard from my testimony, I still don't feel 
that consumers can adequately comparison shop and to know what 
the full price of the product that they are buying is. There is 
no way today for anybody to say, ``I am traveling with my wife 
and two kids, we are going to carry on four bags and check two 
bags, and we are going from New York City to L.A.'' You cannot 
get the total price, including checked bags, assigned seats, 
and airfares. It doesn't exist. And that is something which we 
need to get around to, and eventually we will, because it will 
help everybody.
    Competition is what makes these systems work. And without 
competition, without having the pricing and the data available 
to everyone, the system just won't change.
    Mr. LoBiondo. Thank you.
    For Mr. Tilden and Mr. Childs, Mr. Westerman touched on 
this, and it may be purely economics, but I represent Atlantic 
City Airport. We have a 10,000-foot runway. We were backup for 
the shuttle when it was in operation. We have a new, very 
modern terminal. We are in fairly close proximity to 
Philadelphia, which is bursting at the seams with trying to 
figure out how to expand.
    And maybe it is just economics, but the South Jersey 
Transportation Authority and actually the New York Port 
Authority, which is now the operator for the airport, we are 
just searching for, like, the same thing Mr. Westerman was 
searching. Do you have any advice for an airport like ours of 
how to attract additional?
    Mr. Tilden. What we have seen on the west coast, what Mr. 
Childs said, I think airports have had outreach efforts. They 
come talk to airlines like Alaska. And I think when they work 
with the airline and they commit that an airline brings in 
service, we are going to try to get people on the flight, we 
have done that in many cases, and often it works. Often the 
community says, bring new air service to us. We bring the new 
air service. They get people out, support the air service, and 
it works. So that is a bit of advice I would have.
    The other thing I would just add is the system is 
fantastic. I mean, it works really, really well. But a lot of 
the things we have been talking about today, it just costs 
money to fly an airplane well and safely and pay people the way 
you want to pay them and so forth.
    So what you have seen--and Chip has been speaking to this--
is that the smallest airplane size you see has gone from 9 
seats to 19 seats to 28 seats to now really the smallest 
airplane you see much of at all is about a 50-seater. And I 
don't know what to do about that. I don't have any bright, any 
great--it just may be that to fly the way we want to fly and 
need to fly, that is about the size that you are going to see 
sort of commonly used.
    To the other Congressman's question, in certain markets 
where they are really remote, maybe essential air service with 
some help from the Government is how you prop up service in 
some of those locations.
    Mr. LoBiondo. Anything different, Mr. Childs?
    Mr. Childs. Yeah, I may sound like a broken record a little 
bit here today, but the reality is, if there are not enough 
pilots and the statistics that I read earlier are real, if you 
are trying to get new service the way you are talking about, it 
is very, very difficult unless we solve this pilot solution 
through the means in which we have talked about, because that 
enables you to have a conversation.
    We talk about communities losing service. We talk about 
communities getting service. A lot of this has to be solved by 
this pilot situation that we need help with.
    Mr. LoBiondo. OK.
    Ms. Nelson, you were very articulate about the rest hour, 
and at least some of us hope that becomes a reality. But in 
addition to that, is there anything that we should be looking 
at that would be on a top priority list for you that we have 
not asked about that you think should be included or we should 
be looking at?
    Ms. Nelson. Thank you very much, Chairman LoBiondo.
    Our top priority is the 10 hours with the Fatigue Risk 
Management Plan. We also appreciate the work of this committee 
and would continue to support some of the items that were in 
last year's bill, which include a review of the evacuation 
standards, no knives on planes, and I am trying to look for the 
list of the rest.
    But we would really implore this committee to continue with 
the 10 hours in the Fatigue Risk Management Program and to take 
very seriously your job with the oversight of the industry in 
enforcing these trade agreements, enforcing these Open Skies 
agreements, and addressing the issue of the flag-of-convenience 
model in aviation. We believe that that is the top concern for 
our members and we hope that that will be addressed this year.
    Mr. LoBiondo. Very well.
    Mr. DeFazio, do you have anything else.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Hete, the Trump administration has recently put a hold 
on an FAA rule to harmonize the United States with the ICAO 
lithium battery transport requirements. ICAO determined that 
the risk is such that there should be no commercial transport 
of lithium batteries on passenger aircraft whatsoever. And then 
secondly, they imposed requirements upon packaging and charge 
and other things for freight transport. Do you support the ICAO 
rules?
    Mr. Hete. Yes, we do. Harmonization is key to us.
    Mr. DeFazio. OK. Right. So I am hopeful that the Trump 
administration will withdraw their delay in that rule. I mean, 
what this said is: Well, we know we will have voluntary 
compliance.
    I am always concerned with voluntary compliance because 
there is always some low-budget person out there saying: To 
heck with that, I will take your stuff.
    So you think if we set this floor we are going to be much 
better off because everybody has to follow the same rules.
    Mr. Hete. That is correct.
    Mr. DeFazio. OK.
    And then to Mr. Tilden or Mr. Childs, I would assume you 
support the ICAO position that the commercial transport at this 
point in time is too hazardous and would not want to see that, 
again, someone is transporting commercially on passenger 
aircraft.
    Mr. Tilden. Yes.
    Mr. DeFazio. OK.
    Mr. Childs.
    Mr. Childs. Yes.
    Mr. DeFazio. OK. Good. Well, hopefully we can get that 
straightened out with the administration. So--well, OK.
    I had asked the question of Ms. Nelson. Your testimony was 
great. And, I mean, one thing that came to my mind was, is if 
we are contracting for pilots around the world, what standards 
would they have been trained under and what number of hours 
would they have. And then of course there is the additional 
problem of the Malaysian flight that we still haven't found. So 
I am not anxious to be having Malaysian pilots in the near 
future.
    And I have found, the staff found that ICAO says 200 hours 
of flight time, or 150 if completed during training, is the 
pilot standard. So when we start looking at this contract 
model, it is likely that your people are going to be flying 
overseas in complicated, large aircraft with someone who has 
got 201 hours of time. That is great.
    I do note in India, in fact, there were people who got 
certificated who had never, ever even flown a simulator, let 
alone a plane. It was a bit of a scandal, and they got their 
certificates pulled, but it did happen.
    So I just want to thank you for raising those issues. And I 
don't think we should be asking U.S. airlines to compete with 
countries that only require 200 hours to meet the minimum ICAO 
standard. I would have a tremendous concern about that.
    Would you, Mr. Leocha, have a concern in terms of consumer 
protection of having people fly on planes with pilots with that 
little experience?
    Mr. Leocha. The international airline system as it is 
running right now is probably the safest that it has ever been 
in history, and if we keep doing what we are doing and we have 
basically no fatal crashes for a long time, I think that we are 
on the right track.
    Mr. DeFazio. OK. That was a little equivocal. I would say 
we still haven't found that Malaysian flight, so I have 
concerns about chasing the cheapest labor around the world. I 
have spent a lot of time on cruise line issues and domestic 
maritime issues, and nobody wins in a race to the bottom, which 
is where we have taken things, particularly with flags of 
convenience.
    There was a great ``60 Minutes'' piece about 15 years ago 
on flags of convenience and what it means for passengers: rape, 
murder, whatever. You would go to the Liberian courts if you 
were on the high seas. A ship gets hijacked, call the Liberian 
Navy. I do not want to see something like that happening to the 
airline industry, and this model will take us in that 
direction.
    With that, Mr. Chairman, I thank you for the time, and 
yield back.
    Mr. LoBiondo. Thank you, Mr. DeFazio.
    I would like to thank our panelists here today. I think 
this was very productive.
    I would like to remind everybody we are looking for your 
ideas, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d595f4c435e5d425f594b4848494f4c4e466d404c4441034542585e48034a425b03">[email&#160;protected]</a>
    And this hearing stands adjourned.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                         [all]
                         
                         
                         
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
